<html>
<title> - MAKING COMMUNITIES SAFER: YOUTH VIOLENCE AND GANG INTERVENTIONS THAT WORK</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
 MAKING COMMUNITIES SAFER: YOUTH VIOLENCE AND GANG INTERVENTIONS THAT 
                                  WORK
=======================================================================


                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                         AND HOMELAND SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 15, 2007

                               __________

                           Serial No. 110-14

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov




                      U.S. GOVERNMENT PRINTING OFFICE
33-314 PDF                    WASHINGTON  :  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government
Printing Office Internet:  bookstore.gpo.gov Phone:  toll free (866)
512-1800; DC area (202) 512-1800 Fax: (202)512-2250 Mail: Stop SSOP,
Washington, DC 20402-0001 


                       COMMITTEE ON THE JUDICIARY

                 JOHN CONYERS, Jr., Michigan, Chairman
HOWARD L. BERMAN, California         LAMAR SMITH, Texas
RICK BOUCHER, Virginia               F. JAMES SENSENBRENNER, Jr., 
JERROLD NADLER, New York                 Wisconsin
ROBERT C. SCOTT, Virginia            HOWARD COBLE, North Carolina
MELVIN L. WATT, North Carolina       ELTON GALLEGLY, California
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            STEVE CHABOT, Ohio
MAXINE WATERS, California            DANIEL E. LUNGREN, California
MARTIN T. MEEHAN, Massachusetts      CHRIS CANNON, Utah
WILLIAM D. DELAHUNT, Massachusetts   RIC KELLER, Florida
ROBERT WEXLER, Florida               DARRELL ISSA, California
LINDA T. SANCHEZ, California         MIKE PENCE, Indiana
STEVE COHEN, Tennessee               J. RANDY FORBES, Virginia
HANK JOHNSON, Georgia                STEVE KING, Iowa
LUIS V. GUTIERREZ, Illinois          TOM FEENEY, Florida
BRAD SHERMAN, California             TRENT FRANKS, Arizona
ANTHONY D. WEINER, New York          LOUIE GOHMERT, Texas
ADAM B. SCHIFF, California           JIM JORDAN, Ohio
ARTUR DAVIS, Alabama
DEBBIE WASSERMAN SCHULTZ, Florida
KEITH ELLISON, Minnesota
[Vacant]

            Perry Apelbaum, Staff Director and Chief Counsel
                 Joseph Gibson, Minority Chief Counsel
                                 ------                                

        Subcommittee on Crime, Terrorism, and Homeland Security

                  ROBERT C. SCOTT, Virginia, Chairman

MAXINE WATERS, California            J. RANDY FORBES, Virginia
WILLIAM D. DELAHUNT, Massachusetts   LOUIE GOHMERT, Texas
JERROLD NADLER, New York             F. JAMES SENSENBRENNER, Jr., 
HANK JOHNSON, Georgia                Wisconsin
ANTHONY D. WEINER, New York          HOWARD COBLE, North Carolina
SHEILA JACKSON LEE, Texas            STEVE CHABOT, Ohio
MARTIN T. MEEHAN, Massachusetts      DANIEL E. LUNGREN, California
ARTUR DAVIS, Alabama
[Vacant]

                      Bobby Vassar, Chief Counsel

                    Michael Volkov, Minority Counsel


                            C O N T E N T S

                              ----------                              

                           FEBRUARY 15, 2007

                           OPENING STATEMENT

                                                                   Page
The Honorable Robert C. Scott, a Representative in Congress from 
  the State of Virginia, and Chairman, Subcommittee on Crime, 
  Terrorism, and Homeland Security...............................     1
The Honorable J. Randy Forbes, a Representative in Congress from 
  the State of Virginia, and Ranking Member, Subcommittee on 
  Crime, Terrorism, and Homeland Security........................     2

                               WITNESSES

Mr. Delbert Elliott, Director, Center for the Study and 
  Prevention of Violence, University of Colorado
  Oral Testimony.................................................     6
  Prepared Statement.............................................     8
Mr. Jeffrey A. Butts, Senior Researcher, Chapin Hall Center for 
  Children, University of Chicago
  Oral Testimony.................................................    12
  Prepared Statement.............................................    14
Mr. Lawrence W. Sherman, Director, Jerry Lee Center of 
  Criminology, University of Pennsylvania
  Oral Testimony.................................................    15
  Prepared Statement.............................................    18
Mr. David M. Kennedy, Director, Center for Crime Prevention and 
  Control, John Jay College of Criminal Justice, New York, NY
  Oral Testimony.................................................    33
  Prepared Statement.............................................    34
Chief James Corwin, Chief of Police, Kansas City, MO
  Oral Testimony.................................................    38
  Prepared Statement.............................................    41
Ms. Mai Fernandez, Legal and Strategy Director, Latin American 
  Youth Center, Washington, DC
  Oral Testimony.................................................    48
  Prepared Statement.............................................    50
Mr. Paul Logli, Chairman of the Board, National District 
  Attorneys Association, Winnebago County, IL
  Oral Testimony.................................................    51
  Prepared Statement.............................................    53
Mr. Teny Gross, Executive Director, Institute for the Study and 
  Practice of Nonviolence, Providence, RI
  Oral Testimony.................................................    59
  Reference Material.............................................    62

                                APPENDIX

Material submitted for the hearing record........................    97


 MAKING COMMUNITIES SAFER: YOUTH VIOLENCE AND GANG INTERVENTIONS THAT 
                                  WORK

                              ----------                              


                      THURSDAY, FEBRUARY 15, 2007

                  House of Representatives,
                  Subcommittee on Crime, Terrorism,
                              and Homeland Security
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:06 a.m., in 
Room 2141, Rayburn House Office Building, the Honorabble Robert 
C. Scott (Chairman of the Subcommittee) presiding.
    Mr. Scott. Good morning. The Subcommittee will now come to 
order.
    And I am pleased to welcome you today to this hearing 
before the Subcommittee on Crime, Terrorism, and Homeland 
Security on ``Making Communities Safer: Youth Violence and Gang 
Interventions that Work.''
    Recent news reports cite increases in crime in several 
major cities, particularly violent crime. Much of the rise in 
violent crimes reported is attributable to youth, including 
youth associated with gangs. Even before the recent report 
suggesting increases in violence committed by youth, we have 
seen reports of increasing gang violence and other criminal 
activities on a local as well as international scale.
    A few years ago, the Washington, D.C., area saw reports of 
gang violence attributed to gangs such as MS-13. There are also 
reports of gang rivalries resulting in murders of several youth 
in the District and the Maryland suburbs.
    Congress thought to respond to these reports as we usually 
do with legislation calling for more death penalties, more 
mandatory minimum sentences and treating more juveniles as 
adults. We faced a similar situation in the mid-1990's with 
legislation such as the Violent Youth Predator Act. You can 
tell from the title what the bill called for, and it did, 
treating more juveniles as adults, mandatory minimums, death 
penalties and so forth.
    We debated this type of legislation over several Congresses 
until then-Subcommittee Chairman Bill McCollum of Florida and I 
put together a hearing similar to this one and decided to 
propose bipartisan legislation based on recommendations from 
the researchers, practitioners and other experts we called as 
witnesses.
    That legislation was the ``Consequences for Juvenile 
Offenders Act.'' It called for a system of early interventions 
with graduated sanctions of services as the individual case 
required to divert juveniles from further crime and violence. 
The legislation was supported by all Members of the 
Subcommittee and most of the Members of the full Committee, 
including the Chairman and Ranking Member. It was also 
supported by a broad spectrum of those working with juveniles, 
including advocates, researchers, juvenile judges, juvenile 
administrators, law enforcement, local and State, and others.
    In addition, in the wake of the Columbine school shootings, 
then-Speaker Hastert and then-Minority Leader Gephardt 
appointed a bipartisan task force of Members who did the same 
thing as Bill McCollum and I did, called in some law 
enforcement officials and other experts and issued a report 
reflecting their recommendations, which were similar to those 
received at the Crimes Subcommittee hearing.
    The legislation, based on recommendations of the experts, 
passed the House with a near unanimous vote and was eventually 
passed into law. Of course, the legislation took nothing away 
from the already existing tough laws and law enforcement 
approaches available to deal with juveniles and others 
committing crimes. Juveniles were already being routinely 
transferred to adult court for the very serious offenses and 
nothing in the legislation stopped that.
    The U.S. already locks up more people per capita than any 
other country on Earth, by far. The average lock-up rate around 
the world is about 100 per 100,000. For example, Australia's 
rate is 126 per 100,000; Canada, 107; England, 148; France, 85; 
China, 118; Japan, 62; India, 30 per 100,000. The second 
highest rate is 611 in Russia. The United States' rate is 733. 
And rates of 1,000, 2,000 and 3,000 in inner-cities is not 
unheard of. One hundred per 100,000 international average.
    Rather than simply adding to the world's worst 
incarceration rate, the legislation that we hope to enact will 
be aimed at cutting off the pipeline for the next group of 
offenders. It will be designed to add something else to the 
balance, what researchers and experts say is needed, and that 
is crime prevention.
    Unfortunately, the funding that we authorized to implement 
the legislation was never provided. We ended up with 20 percent 
of the authorized level, and the level has gone down ever 
since. So we are once again considering what to do about the 
reports of juvenile crime without having done what we were told 
to do to begin with.
    A lot has happened in the interim. We have learned more 
about effective approaches to addressing youth violence and 
youth crime. We have an impressive panel of experts here today 
to tell us about that research, the evidence and the 
experience, and hopefully they will give advice to Congress on 
how we can do the right thing.
    I look forward to their testimony and working with Ranking 
Member Forbes in incorporating the testimony into legislative 
efforts and addressing youth and gang violence.
    It is now my privilege to recognize our Ranking Member, the 
gentleman from Virginia, Congressman Randy Forbes, for his 
opening statement.
    Mr. Forbes. Thank you, Mr. Chairman.
    And let me also thank all of the witnesses for being here 
today.
    Mr. Chairman, thank you for holding this hearing today.
    One of the things that I think has become clear to us, 
although it wasn't clear to all of the Members of the Judiciary 
Committee last year when we tried to begin to put forward 
legislation dealing with gangs, is that we do have a gang 
problem in the United States and we had several of our Members 
who asked the question last year when we had this, ``Do we have 
a problem? Where is the problem? I don't see the problem.''
    Well, I think everybody across the country now understands 
the significance of the gang problem.
    As you and I are sitting here today, we have approximately 
850,000 criminal gang members in the United States. And if you 
put a touchstone that gives us a little better measuring device 
on that, we would have approximately the sixth-largest army in 
the world, that is within our borders right now.
    The whole scope of gangs has changed enormously. Although 
many of you have dealt with this problem longer than I have, I 
have dealt with it now about 16 years, and I remember when we 
started dealing with it back in the late 1980's and the early 
1990's, as we would go to groups and talk to them about what 
causes you to get into gangs, it would be the same things that 
we would hear over and over again: sense of belonging, wanting 
to have a family connection, ``The gangs were like our 
families.''
    As we have looked, since the year 2000, that has 
metamorphasized quite a bit and it has changed dramatically 
now. And more and more now we are hearing people tell us, ``We 
need to be in gangs for protection, because we are afraid that 
if we are not in a gang, there is no way that we can be safe 
out on the streets.''
    One of the things that we all feel that we see in our 
offices is I have my door opened all the time to people coming 
in to chat with me who want funding, and in almost every 
situation, I can tell you, it doesn't matter, whether they are 
renovating an old school or whether they have a martial arts 
program, one of the things that they always tell us, as soon as 
they are in there and they have told us their funding needs, 
the next two things is, they tell us this has something to do 
with homeland security or juvenile crime prevention. And we are 
looking in there, shaking our heads, saying, ``How does 
renovating this old school do anything to protect us from 
terrorism? How does your program over here do anything to help 
us deal with juvenile crime prevention?''
    Just two last points, and I will put my full remarks in the 
record, but the Chairman mentioned the fact that we need to cut 
off the pipeline, and the greatest pipeline that we have out 
there today are these gang networks.
    Sometimes we think that the gang leadership are 15-or 16-
year-olds, running around. Many of the gang leaders that we see 
in our country today are actually moving on up in age. Some of 
them are in their thirties, some forties. In fact, it is funny 
because we see some of the old gang leadership now going around 
in wheelchairs and, you know, we jokingly say they are going to 
be coming in here asking us for retirement benefits later on 
down the road.
    But we have, if you are looking at the pipeline and you are 
looking at how do we really cut that pipeline off, what can we 
do for gang prevention, one of the things we have to keep on 
the table is reaching up and pulling those gang networks down 
and the leadership down that is continuing to try to franchise 
their efforts and what they are doing, because the gangs we 
have today that really frighten us the most are no longer just 
local gangs. They are international gangs and national gangs, 
and they have networks of communication and travel like we have 
seldom seen before.
    And the last thing, Mr. Chairman, we have an unusual panel, 
not just in your talent and your ability, but it is almost 
impossible, when you have logistically staged the way we have 
and you have eight members sitting out there to testify, that 
we will be able to ask you all of the questions we want to ask 
you, but we are going to try, and if we can't get them in 
today, we will try to supplement that with maybe some written 
questions to you down the road.
    So thank you for being here. We look forward to being able 
to ask you some questions and hearing your testimony as we move 
forward with the hearing.
    Mr. Scott. Thank you very much.
    We are joined by the gentleman from North Carolina, Mr. 
Coble, and the gentleman from Ohio, Mr. Chabot.
    Without objection, all Members may include opening 
statements in the record at this point.
    In response to the ability to question witnesses, we would 
expect more than one round if necessary so that we can get in 
as many questions as we can.
    We have a distinguished panel of witnesses here with us 
today to help us consider the important issues that are before 
us.
    Our first witness will be Professor Del Elliott, who is the 
director of the Center for the Study and Prevention of Violence 
at the University of Colorado, where he is also a distinguished 
professor emeritus for the Department of Sociology.
    Prior to holding his current office, he served as the 
director for the University of Colorado's program on problem 
behavior as well as for the behavioral research institute in 
Boulder. In recognition for his efforts, he has received 
numerous national awards, including the Public Health Service 
Medallion for Distinguished Service from the U.S. Surgeon 
General and an outstanding achievement award from the U.S. 
Department of Justice.
    He received his Bachelor's degree from Pomona College and 
his Master's degree and Ph.D. from the University of Washington 
in Seattle.
    Our next witness, Dr. Jeffrey Butts, is a research fellow 
with the Chapin Hall Center for Children at the University of 
Chicago, where he also teaches in the School of Social Service 
Administration.
    He began his juvenile justice career as a drug and alcohol 
counselor with the Juvenile Court in Eugene, Oregon and has 
since served as a senior researcher at the National Center for 
Juvenile Justice and as the former director of the program for 
youth justice at the Urban Institute.
    Dr. Butts has a Bachelor's degree from the University of 
Oregon, a Master's degree in social work from Portland State 
University and a Ph.D. from the University of Michigan.
    Next is professor Lawrence Sherman, director of the Jerry 
Lee Center in Criminology at the University of Pennsylvania, 
where he is also a professor in the departments of Sociology 
and Criminology.
    Prior to his current post, he was the chair of Criminology 
and Criminal Justice at the University of Maryland at College 
Park and also taught at Yale, the State University of New York 
at Albany, Rutgers University and Australian National 
University.
    He holds a Bachelor's degree from Dennison University and 
Master's degrees from University of Chicago and Yale University 
as well as a diploma in criminology from Cambridge University.
    Next we will hear from David Kennedy. Mr. David Kennedy is 
director of the Center for Crime Prevention and Control at the 
John Jay College of Criminal Justice in New York City, where he 
is also a professor in anthropology. Prior to his position at 
John Jay College, Mr. Kennedy was a senior researcher and 
adjunct professor at the program in Criminal Justice Policy and 
Management for the Kennedy School of Government at Harvard 
University.
    He received his Bachelor's degree with high honors in 
philosophy and history from Swarthmore College in Pennsylvania.
    Then we will hear from Chief James Corwin, chief of police 
of Kansas City, Missouri, Police Department. He served with 
Kansas City, Missouri, Police Department since his appointment 
as a police officer in 1979. He also serves on numerous boards 
in the community, including the Missouri Emergency Response 
Committee and the Kansas City, Missouri, Crime Commission.
    He holds a Bachelor's degree from Central Missouri State 
and a Master's degree from Webster University. He is also a 
graduate of Kansas City, Missouri Regional Police Academy, the 
Missouri State Highway Patrol Academy and the 192nd Session of 
the FBI National Academy.
    We will hear from Mai Fernandez, the legal and strategy 
director for the Latin America Youth Center in Washington, 
D.C., where she has also served as a special assistant to the 
assistant attorney general in the Office of Justice Programs.
    Prior to her current post, Ms. Fernandez also served as an 
assistant district attorney in Manhattan and also as an aide to 
Congressmen Mickey Leland and Jim Florio. She is a graduate of 
Dickinson College, received her Master's degree in public 
administration from Harvard University and a Law degree from 
American University.
    Next is Paul Logli, chairman of the board of the National 
District Attorneys Association. Mr. Logli is currently serving 
as an elected States attorney in Winnebago County, Illinois, 
where he has also served as vice president of the County Bar 
Association.
    Prior to his current position, he served as an associate 
judge for the 17th Judicial Circuit in Illinois and also as a 
member of the Governor's Commission on Gangs in Illinois.
    He is a graduate of Loras College and the University of 
Illinois College of Law.
    Our final witness will be Mr. Teny Gross, executive 
director of the Institute for the Study and Practice of 
Nonviolence in Providence, Rhode Island. Prior to holding his 
current position, he served as program coordinator for the 
Youth Focused Community Initiative in Dorchester, Massachusetts 
and a senior street worker for the City of Boston and also 
first sergeant in the Israeli Army Reserves.
    He received his Master of Theology Studies degree from 
Harvard University, Bachelor of Fine Arts degrees from Tufts 
University and the School of Museum of Fine Arts in Boston.
    Each of the witnesses has a written statement which will be 
made as part of the record in its entirety.
    I would ask each witness to summarize his or her testimony 
in 5 minutes or less. And to help stay within that time period, 
you have a little light gizmo which will start off green and go 
to amber when it is time to start wrapping up. Then it will go 
to red. Nothing draconian will happen when it turns to red, but 
we would appreciate it if you would wrap up at that time.
    We will begin with Professor Elliott.

 TESTIMONY OF DELBERT ELLIOTT, DIRECTOR, CENTER FOR THE STUDY 
       AND PREVENTION OF VIOLENCE, UNIVERSITY OF COLORADO

    Mr. Elliott. Chairman Scott and other distinguished Members 
of the Committee, it is a pleasure to be here and to talk with 
you.
    I am the director of the Center for the Study and 
Prevention of Violence at the University of Colorado and the 
editor of the ``Blueprints for Violence Prevention Series,'' 
which is a series of model violence prevention programs that 
meet a very high scientific standard, good enough that we could 
implement those programs on a national level.
    We have looked at over 600 violence prevention programs, 
and out of those 600 programs, 75 to 80 percent of those 
programs have no credible evaluation. Of the others that do 
have a credible evaluation, a majority of those don't work. 
That is, the evidence that we have suggests that they are not 
effective.
    Fortunately, we have also a number of programs--not 
enough--but we have a number of programs that are very 
effective and have very good effect sizes. That is, they can 
really have a significant effect upon violence and drug use and 
delinquency.
    Unfortunately, I have to tell you we also find a few 
programs that are actually harmful, that are doing more harm 
than good.
    So the first recommendation that I would like to make to 
the Committee is that we deal with this huge expenditure of 
money invested in programs in which we have no idea whether 
they work or not. That means we either need to mandate the use 
of effective programs, research-effective programs, or we need 
to invest in evaluations of those programs.
    To continue to fund programs that we have no knowledge 
about whether they work or not is not a good idea, particularly 
when we know in some cases, although well-intended, they 
actually do harm. The ethics of delivering programs requires 
that we know whether those programs are effective or not.
    Secondly, I would like to recommend that we stop funding 
the programs that we know don't work. That is, of those 
programs that we have looked at where the evidence is 
compelling that they don't work, we need to stop funding those 
programs. And there are a number of those programs, 
unfortunately, which we are continuing to fund. The traditional 
DARE program, shock probation programs, waivers out of the 
juvenile system and into the adult criminal system all have 
either no effect or negative effects and we need to stop 
investing our dollars in those kinds of programs.
    Third recommendation I would like to make is that whenever 
it is possible, we should mandate that Federal funds be used 
for effective programs or invested in the evaluation of 
promising programs, to bring them up to the level that they can 
be implemented on a wide scale with certainty.
    This will not require any major increase in funding. It 
involves first of all a reallocation of the dollars which we 
are currently spending, the vast majority of which right now 
are going into programs that aren't effective. If we reallocate 
those dollars, that is the first way that we can implement good 
programs without increasing the necessary funding.
    Secondly, if we are funding evidence-based programs that 
meet a high standard, they do not need to have outcome 
evaluations, and we save money with respect to evaluation 
dollars. Those programs have been demonstrated effective at a 
level and there are continuing evaluations of them, so local 
agencies do not need to engage in evaluation if they are using 
evidence-based programs.
    Third, these programs are so cost-effective that they will 
be paying for themselves in a very short period of time. The 
State of Washington has done an analysis in which they looked 
at a very modest portfolio of these evidence-based programs and 
have demonstrated that within 4 years those programs are paying 
for themselves. They estimate it would cost $60 million to 
implement that portfolio statewide and in 4 years the taxpayer 
benefits in savings would equal $60 million. At 10 years, the 
taxpayer savings from reduction in crime costs would be $180 
million and 20 years later the savings would be $480 million 
for a $60 million investment in evidence-based programs.
    These programs are also very cost-effective. If we look at 
a model program like Life Skills Training, which can reduce the 
onset of illicit substance use by 50 to 70 percent, that 
program, if we were to put that program in every middle school 
in this country, it would cost somewhere in the neighborhood of 
$550 million. That program could cut the onset of illicit drug 
use 50 to 70 percent. That $550 million represents 1.5 percent 
of our current spending on drug control.
    And, finally, I would simply like to recommend that we 
establish a Federal standard for what it means to be certified 
as an evidence-based program. A lot of confusion right now 
because the standard dues on all of these lists which are 
available is very, very different.
    There is a Federal working group on the Federal 
collaboration of what works which has proposed a standard, and 
I recommend that you look at that standard carefully. It is an 
excellent standard and it would resolve all of this confusion 
about what it means to be an effective program.
    Thank you.
    [The prepared statement of Mr. Elliott follows:]
                Prepared Statement of Delbert S. Elliott
                               background
    The demand for effective violence, drug, and crime prevention 
programs continues to grow. It is now common for Federal and State 
Agencies, private foundations and other funders to require or at least 
encourage the use of ``evidenced based'' programs. While this is an 
important new direction for current policy, the great majority of 
programs implemented in our schools and communities still have no 
credible research evidence for their effectiveness. In their national 
review of delinquency, drug and violence prevention/intervention 
programs, the Center for the Study and Prevention of Violence has 
identified over 600 programs that claim to prevent or deter violence, 
drug use or delinquent behavior and less than 20% have any rigorous 
evaluation. There are several reasons for this. First, the new 
evidence-based policy is typically only a guideline and is not mandated 
or enforced. The process for selecting programs remains largely 
informal, relying on local expertise and ``old boy/girl networks,'' and 
in many instances does not include scientific evidence of effectiveness 
as an important selection criterion. There is still a relatively strong 
aversion to ``canned'' programs developed outside the local area. 
Second, many of the lists of approved programs provided by funding 
agencies either have no scientific standard for selection or a very low 
standard. The scientific evidence for effectiveness is highly 
questionable for a significant number of lists. Third, few programs on 
these lists have the capacity to be delivered with fidelity on a wide 
scale. According to a recent national survey of school-based prevention 
programs, most programs being implemented were not evidence-based and 
even when they were, they were often being delivered with such poor 
fidelity that there is no reason to believe they could be effective in 
preventing violence, drug use or delinquency.\1\ The fact remains that 
most of the resources currently committed to the prevention and control 
of youth violence, drug use and delinquency, at both national and local 
levels, has been invested in unproven programs based on questionable 
assumptions and delivered with little consistency or quality control.
---------------------------------------------------------------------------
    \1\ Gottfredson, 2001.
---------------------------------------------------------------------------
    Moreover, the vast majority of these untested programs continue to 
be implemented with no plans for evaluation. This means we will never 
know which (if any) of them have had some significant deterrent effect; 
we will learn nothing from our investment in these programs to improve 
our understanding of the causes of violence or to guide our future 
efforts to deter violence; and there is no meaningful accountability of 
the expenditures of scarce community resources. Worse yet, some of the 
most popular programs have actually been demonstrated in careful 
scientific studies to be ineffective or even harmful,\2\ and yet we 
continue to invest huge sums of money in them for largely political 
reasons.
---------------------------------------------------------------------------
    \2\ Sherman et al., 1997; Elliott and Tolan, 1999; Lipsey, 1992, 
1997.
---------------------------------------------------------------------------
    What accounts for this limited investment in the evaluation of our 
prevention programs? First, there is little political or program 
support for evaluation. Federal and state violence prevention 
initiatives often fail to provide any realistic funding for evaluation 
of the programs being implemented. Moreover, program directors argue 
that in the face of limited funding, every dollar available should go 
to the delivery of program services, i.e., to helping youth avoid 
involvement in violent or criminal behavior. The cost of conducting a 
rigorous outcome evaluation is prohibitive for most local programs, 
exceeding their entire annual operational budget in many cases. Without 
independent funding, they can not undertake a meaningful evaluation. 
Finally, many program developers believe they know intuitively that 
their programs work, and thus they do not think a rigorous evaluation 
is required to demonstrate this.
    Unfortunately, this view is very shortsighted. When rigorous 
evaluations have been conducted, they often reveal that such programs 
are ineffective and can even be harmful.\3\ Indeed, many programs fail 
to address any of the known risk factors or underlying causes of 
violence. Rather, they involve simplistic ``silver bullet'' assumptions 
and allocate investments of time and resources that are far too small 
to counter the years of exposure to negative influences of the family, 
neighborhood, peer group, and the media. Violence, substance abuse and 
delinquency involve complex behavior patterns that involve both 
individual dispositions and social contexts in which these behaviors 
may be normative and rewarded. There is a tendency for programs to 
focus only on individual dispositions, with little or no attention to 
the reinforcements for criminal behavior in the social contexts where 
youth live. As a result, any positive changes in the individual's 
behavior achieved in the treatment setting are quickly lost when the 
youth returns home to his or her family, neighborhood, and old friends. 
This failure to attend to the social context also accounts for the 
``deviance training'' effect often resulting from putting at-risk youth 
into correctional settings or other ``group'' treatment settings which 
rely on individual treatment models and fail to properly consider the 
likelihood of emerging delinquent group norms and positive 
reinforcements for delinquent behavior.
---------------------------------------------------------------------------
    \3\ Lipsey, 1992, 1997; Sherman et al., 1997; and Tolan and Guerra, 
1994.
---------------------------------------------------------------------------
    On the positive side, we have a number of very effective violence 
prevention and intervention programs. We have a universal drug 
prevention program (Life Skills Training) that can reduce the onset of 
illicit drugs by 50-70 percent and alcohol and tobacco use by as much 
as 50 percent; an intervention program for adjudicated youth 
(Multisystemic Therapy) that reduces the probability of recidivism by 
as much as 75 percent; an early childhood program (Nurse Family 
Partnership) that reduces arrests by 59 percent. See Table A for a list 
of Blueprint Model Programs. We have the means to significantly reduce 
current levels of violence and substance abuse, but we are not 
implementing effective programs on a level that can have any 
significant effect on overall rates of violence and substance abuse in 
our communities
                        specific recommendations
        1. The funding of unproven programs must include an evaluation.

        Progress in our ability to effectively prevent and control 
        crime requires evaluation to identify effective programs and a 
        commitment to implement these programs with fidelity. Only 
        those programs with demonstrated effectiveness and the capacity 
        to be delivered with fidelity should be implemented on a wide 
        scale. We have a long history of pushing untested programs for 
        political reasons only to discover later that they did not work 
        (e.g., D.A.R.E., boot camps, shock probation, juvenile court 
        transfers/waivers). A responsible accounting to the taxpayers, 
        private foundations, or businesses funding these programs 
        requires that we justify these expenditures with tangible 
        results. No respectable business would invest millions of 
        dollars in an enterprise without assessing its profit 
        potential. No reputable physician would subject a patient to a 
        medical treatment for which there was no evidence of its 
        effectiveness (i.e., no clinical trials to establish its 
        potential positive and negative effects). No program designer 
        should be willing to deliver a program with no effort to 
        determine if it is effective. Our continued failure to provide 
        this type of evidence for prevention programs will seriously 
        undermine public confidence in crime prevention efforts 
        generally. It is at least partly responsible for the current 
        public support for building more prisons and incapacitating 
        youth--the public knows they are receiving some protection for 
        this expenditure, even if it is temporary.

        The costs of a randomized control trial is quite high, well 
        beyond the capacity of most programs. Federal funding for 
        promising prevention/intervention programs is critical to 
        advancing both the number of programs that can be certified as 
        effective and the diversity of populations and conditions under 
        which these programs work

        2. Stop funding programs that don't work.

        The available evidence indicates that a number of very popular 
        crime prevention programs don't work and a few appear to be 
        harmful.\4\ Some of the better known programs and strategies 
        that appear not to work include: shock probation (e.g., Scared 
        Straight), waivers of juveniles into the adult criminal court, 
        traditional DARE, gun buyback programs, vocational programs, 
        juvenile intensive parole supervision, reduced probation/parole 
        caseloads, and STARS. Whether the accumulated evidence for 
        these programs is conclusive depends on the standard we use to 
        certify programs as effective or not effective, but there is 
        clearly reason to be very cautious about continuing these 
        programs until some positive evaluation outcomes are obtained.
---------------------------------------------------------------------------
    \4\ See Sherman et al., 1998; Lipsey and Wilson, 1998; Aos et al., 
2004.

        3. Clarify what is meant by ``evidence-based'' and establish a 
---------------------------------------------------------------------------
        national standard for certifying programs as ``model'' programs

        There is a lot of confusion about what constitutes an evidence-
        based program. There are those who think that positive 
        testimonials by clients is sufficient evidence to claim their 
        program is evidence-based; to be certified as a model program 
        in the Blueprints for Violence Prevention series, the program 
        has to have two random control trials or very rigorous quasi-
        experimental trials that show positive effects plus evidence 
        that the effect is sustained for at least one year after 
        leaving the program. Most of the ``lists'' of Federal agencies 
        require at least one RCT or quasi-experimental study. This is 
        not a very demanding standard--one study, typically by the 
        designer of the program in a specific location under ideal 
        conditions. The standard for certifying a program as a model 
        program, that is, a program that qualifies to be implemented on 
        a statewide or national level, must have a very high 
        probability of success. Should they fail, we will quickly lose 
        build public support for funding them, not only for the program 
        that failed, but for other programs that might be truly 
        effective. Unfortunately, our record for the success of 
        programs that have been widely implemented (e.g., DARE) has not 
        been very good and that is because we have not required a high 
        scientific standard for programs being implemented on this 
        scale.

        There is a proposed standard that should be carefully 
        considered. The Working Group of the Federal Collaboration on 
        What Works was established in 2003 to explore how Federal 
        agencies could advance evidence-based crime and substance abuse 
        policy. The Working Group included officials from Department of 
        Justice, Department of Health and Human Services, Department of 
        Education and representatives from the Coalition for Evidence-
        Based Policy and the National Governor's Association. The 
        Working Group has recommended an excellent standard and 
        classification system for certifying a program's level of 
        demonstrated effectiveness. If this standard was formally 
        adopted, it would both clarify what ``evidence-based'' means 
        and set a required scientific standard for programs that are 
        considered ready for widespread dissemination.

        4. We should promote widespread implementation of cost 
        effective evidence-based programs.

        The implementation of evidence-based prevention and 
        intervention programs will result in saved lives, more 
        productive citizens, and significant reductions in crime and 
        violence. The estimated cost for putting Life Skills Training, 
        in every middle school in America has been estimated to be 
        $550M per year. This represents less than 2 percent of national 
        spending on drug control ($40B). The benefits of this program 
        extended beyond the actual participants in the program to their 
        associates and to a shrinking of the drug market allowing for 
        more targeted and effective law enforcement. In this analysis, 
        the effects of law enforcement and prevention/intervention were 
        about the same. Clearly we need both. The Washington State 
        Institute for Public Policy estimates that it would cost about 
        $60M a year to implement a portfolio of evidence-based crime 
        and violence prevention/intervention programs. After four 
        years, the savings associated with reductions in crime would 
        equal the cost of the portfolio; in 10 years, the cost benefit 
        would be $180M; and in 20 years, the cost benefit would be 
        close to $400M for the $60M investment in the evidence-based 
        program portfolioi.
                               conclusion
    Nationally, we are investing far more resources in building and 
maintaining prisons than in primary prevention or intervention 
programs.\5\ We have put more emphasis on reacting to criminal 
offenders after the fact and investing in prisons to remove these young 
people from our communities, than on preventing our children from 
becoming delinquent and violent offenders in the first place and 
retaining them in our communities as responsible, productive citizens. 
Of course, if we had no effective prevention strategies or programs, 
there is no choice. But we do have effective programs and investing in 
these programs and the development of additional effective programs is 
effective, both in terms of human resources and taxpayer savings. 
Prevention and intervention must be part of a balanced approach to 
crime reduction.
---------------------------------------------------------------------------
    \5\ Gottfredson, 1997.
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
 TESTIMONY OF JEFFREY A. BUTTS, SENIOR RESEARCHER, CHAPIN HALL 
           CENTER FOR CHILDREN, UNIVERSITY OF CHICAGO

    Mr. Butts. Good morning, Mr. Chairman, Members of the 
Subcommittee, thank you for the opportunity to speak with you 
today and to be a part of this panel.
    I also apologize. I had a cold last week and my voice is 
still not what it was.
    As part of my testimony, I provided the Subcommittee with a 
Chapin Hall issue brief that I wrote 3 months ago with my 
friend and colleague Howard Snyder of the National Center for 
Juvenile Justice. In that report, titled ``Too Soon To Tell: 
Deciphering Recent Trends In Youth Violence,'' we reviewed the 
past 30 years of data about youth crime, including national 
arrest estimates based on the FBI's juvenile arrest data for 
2005, which is still the most recent year for which national 
data are available.
    [The report referred to is located in the Appendix.]
    When we looked at trends through 2005, we found that it is 
too soon to predict a national increase in violent crime. 
Overall, crime remains at a 30-year low. According to the crime 
victimization surveys conducted by the U.S. Department of 
Justice, an American's chances of being a victim of a violent 
crime are still lower than in any point since the 1970's.
    Violent youth crime has increased at the national level, 
but only slightly. Between 2004 and 2005, the violent crime 
arrest rate for youth under age 18 grew by just 1 percent. The 
total increase amounted to 12 new violent arrests for every 
100,000 juveniles in the population. This is about one-
twentieth of what it would take for violent crime to return to 
the level of 1994, the most recent peak in violent crime.
    In other words, we would have to see the same increase for 
19 more years before we would return to the scale of violence 
seen just a little more than 10 years ago.
    Obviously, we should not wait 19 years to respond to rising 
crime rates, but it is too soon to characterize the recent data 
as a national trend. What the data do suggest is that we have a 
number of cities, and probably neighborhoods within cities, 
that are starting to experience rising serious violence. The 
question for policymakers is, how should we respond to these 
increases?
    At some point in every conversation about violent youth 
crime, someone will make the observation that to truly ensure 
public safety we have to intervene earlier with youthful 
offenders. We cannot wait until a young person is already 
involved in serious violent crime and then try to stop it. 
Waiting is not only ineffective it is expensive. I have heard 
this throughout my 25-year career in juvenile justice and I am 
sure everyone here has heard it. Many of you have probably said 
it at one time or another.
    Why don't we ever seem to make good on this promise? Why 
are we still unable to intervene effectively with young people 
as soon as they become involved in crime? I don't believe it is 
a matter of resources, that we can't afford to do it. We have 
decades of research showing us that high-quality early 
intervention actually saves money.
    I think we fail to intervene early and effectively with 
youthful offenders because we continue to base our policies and 
programs on the wrong theories. For some reason, we seem to 
believe the best way to change the behavior of a 14-year-old is 
to use fear and domination. We use the threat of punishment to 
instill fear and then a series of increasing restrictions to 
establish dominance over youth.
    Certainly there are some young offenders for whom this is 
the only feasible approach. But fortunately that number is very 
small. For the vast majority of young people involved in crime, 
this is simply the wrong approach.
    We also apparently believe that young people who commit 
crimes are defective and that they need to be fixed by 
professional therapists, social workers and psychiatrists. Much 
of what passes for intervention in the juvenile justice system 
today is based on a deficit model of adolescent behavior. 
Whether it is family therapy, drug treatment and anger 
management training, our first response to young offenders 
seems to be fix their pathology.
    Again, for some youth, therapy may be exactly what they 
need. But for many juveniles, and I would argue most in the 
juvenile justice system, this is just bad theory. 
Criminologists will tell you that all people are capable of 
committing crime given the right circumstances. The impulse to 
take advantage of other people is nearly universal.
    The critical question is not why are some people criminals. 
The critical question is why are most young people not 
criminals. Researchers have started to answer this question by 
identifying the protective factors and social assets that 
reduce the young person's chances of getting caught up in 
crime. We are learning that youth with positive and supportive 
relationships are less likely to engage in crime, violence and 
substance abuse. We are also finding that being rewarded for 
learning and trying out new skills helps to keep young people 
attached to conventional institutions, such as family, school 
and work.
    And we are discovering that just like everyone else, young 
people value their communities when their communities value 
them. In other words, youth are less likely to get involved in 
crime when they participate in community affairs and when they 
have a voice in public dialogue.
    All of these lessons are now known as positive youth 
development or the youth development approach. Using the youth 
development approach with young offenders makes obvious common 
sense. It is essentially an effort to import the benefits of a 
middle-class upbringing into high-risk and distressed 
neighborhoods.
    The youth development approach suggests that even poor and 
disadvantaged youth should experience the social bonding that 
comes from having an adult mentor, from knowing success in 
school and from being involved in civic activities, sports, 
music and the arts. If we had a juvenile justice system that 
brought these assets into the lives of more young people, we 
might be able to head off the next wave of rising youth 
violence and make our communities safer.
    Certainly we will always need a justice system that deals 
aggressively with dangerous youth, but we should also want a 
system that responds effectively to young offenders before they 
are violent. Developing this sort of juvenile justice system is 
hard work, but thankfully research shows that it will be cost-
effective. Early intervention does pay.
    One strategy that we know does not pay, in fact, the most 
expensive form of juvenile justice is delay and punish, where 
we put off doing anything serious and meaningful with a young 
offender until he or she does something truly horrible. Yet 
that is still the most common form of juvenile justice system 
that we have today.
    Thank you for your time, and I look forward to the 
discussion.
    [The prepared statement of Mr. Butts follows:]
                 Prepared Statement of Jeffrey A. Butts
    Good morning Mr. Chairman and members of the subcommittee. Thank 
you for the opportunity to speak with you today and to be a part of 
this panel.
    As part of my testimony, I provided the subcommittee with a Chapin 
Hall Issue Brief that I wrote three months ago with my friend and 
colleague, Dr. Howard Snyder of the National Center for Juvenile 
Justice.
    In that report, titled ``Too Soon to Tell: Deciphering Recent 
Trends in Youth Violence,'' we reviewed the past 30 years of data about 
youth crime, including national arrest estimates based on the FBI's 
juvenile arrest data for 2005, which is still the most recent year for 
which national data are available.
    When we looked at trends through 2005, we found that it is too soon 
to predict a national increase in violent crime.
    Overall, violent crime remains at a 30-year low.
    According to the crime victimization surveys conducted by the U.S. 
Department of Justice, an American's chances of being the victim of a 
violent crime are still lower than at any point since the 1970s.
    Violent youth crime has increased at the national level, but only 
slightly.
    Between 2004 and 2005, the violent crime arrest rate for youth 
under age 18 grew by just one percent.
    The total increase amounted to 12 new violent arrests for every 
100,000 juveniles in the population.
    This is about one-twentieth of what it would take for violent crime 
to return to the level of 1994, the most recent peak in violent crime.
    In other words, we would have to see the same increase for 19 more 
years before we would return the scale of violence seen just a little 
more than 10 years ago.
    Obviously, we shouldn't wait 19 years to respond to rising crime 
rates, but it is too soon to characterize the recent data as a national 
trend.
    What the data do suggest is that we have a number of cities, and 
neighborhoods within cities that are starting to experience rising 
violence.
    The question for policymakers is, ``how should we respond to these 
increases?''
    At some point in every conversation about violent youth crime, 
someone makes the observation that to truly ensure public safety we 
have to intervene earlier with youthful offenders.
    We cannot wait until a young person is already involved in serious 
and violent crime and then try to stop it.
    Waiting is not only ineffective; it is expensive.
    I have heard this throughout my 25-year career in juvenile justice. 
I am sure everyone here has heard it. Many of you have probably said it 
at one time or another.
    Why don't we ever seem to make good on this promise?
    Why are we still unable to intervene effectively with young people 
as soon they become involved in crime?
    I don't believe it is a matter of resources--that we can't afford 
to do it.
    We have decades of research showing us that high-quality, early 
intervention actually saves money.
    I think we fail to intervene early and effectively with youthful 
offenders because we continue to base our policies and programs on the 
wrong theories.
    For some reason, we seem to believe the best way to change the 
behavior of a 14-year-old is to use fear and domination.
    We use the threat of punishment to instill fear and then a series 
of increasing restrictions to establish dominance over youth.
    Certainly, there are some young offenders for whom this is the only 
feasible approach, but fortunately that number is very small. For the 
vast majority of young people involved in crime, this is simply the 
wrong approach.
    We also apparently believe that young people who commit crimes are 
defective, and that they need to be fixed by professional therapists, 
social workers, and psychiatrists.
    Much of what passes for intervention in the juvenile justice system 
today is based on a deficit model of adolescent behavior.
    Whether it is family therapy, drug treatment, or anger management 
training, our first response to young offenders seems to involve fixing 
their pathologies.
    Again, for some youth, therapy may be exactly what they need, but 
for many juveniles (I would argue most), this is just bad theory.
    Criminologists will tell you that all people are capable of 
committing crime, given the right circumstances.
    The impulse to take advantage of other people, even to hurt other 
people, is nearly universal.
    The critical question is not, ``why are some young people 
criminals?''
    The critical question is, ``why are most young people not 
criminals?''
    Researchers have started to answer this question by identifying the 
``protective factors'' and ``social assets'' that reduce a young 
person's chances of getting caught up in crime.
    We are leaning that youth with positive and supportive 
relationships are less likely to engage in crime, violence, and 
substance abuse.
    We are also finding that being rewarded for learning and for trying 
out new skills helps to keep young people attached to conventional 
social institutions, such as family, school, and work.
    And, we are discovering that, just like anyone else, young people 
value their communities when their communities value them.
    In other words, youth are less likely to get involved in crime when 
they participate in community affairs, and when they have a voice in 
public dialogue.
    All of these lessons are now known as ``positive youth 
development'' or the ``youth development approach.''
    Using the youth development approach with young offenders makes 
obvious, common sense. It is essentially an effort to import the 
benefits of a middle-class upbringing into high-risk and distressed 
neighborhoods.
    The youth development approach suggests that even poor and 
disadvantaged youth should experience the social bonding that comes 
from having an adult mentor, from knowing success in school, and from 
being involved in civic activity, sports, and music.
    If we had a juvenile justice system that brought these assets into 
the lives of more young people, we might be able to head off the next 
wave of rising youth violence and make our communities safer.
    Certainly, we will always need a justice system that deals 
aggressively with truly dangerous youth, but we should also want a 
system that responds effectively to young offenders even before they 
are violent.
    Developing this sort of juvenile justice system is hard work, but 
thankfully, research shows that it is also cost-effective. Early 
intervention pays.
    One strategy that we know does not pay off--in fact, the most 
expensive form of juvenile justice--is ``delay and punish''--where we 
put off doing anything serious and meaningful with a young offender 
until he or she does something truly horrible.
    Yet, that is still the most common form of juvenile justice system 
today.
    Thank you for your time and I look forward to our discussion. The 
views expressed in this testimony are the author's alone and do not 
necessarily reflect the views of the employees, administrators, or 
board members of the University of Chicago or Chapin Hall Center for 
Children.

 TESTIMONY OF LAWRENCE SHERMAN, DIRECTOR, JERRY LEE CENTER OF 
            CRIMINOLOGY, UNIVERSITY OF PENNSYLVANIA

    Mr. Sherman. My name is Lawrence Sherman and I am grateful 
for the opportunity to discuss the 100,000 murders of Americans 
on the streets of our cities since 9/11/2001, a problem that I 
am delighted this Committee is addressing, especially with its 
focus on youth and gang violence.
    What I would like to focus on is what we have found in 
Philadelphia and appears to be true in many other cities, which 
is that homicide is heavily concentrated among people who are 
already under court supervision. Much of my data pertains just 
to the Adult Probation and Parole Department, but if we add 
pretrial supervision, youth probation, State parole boards, we 
estimate that as many as three out of four murders in the City 
of Philadelphia may be committed by people who are under court 
supervision.
    And what I would like to propose is that this Committee 
offer legislation that would create a Federal grants and aide 
program to support probation, parole and pretrial services 
agencies that would undertake an evidence-based approach to the 
prediction and prevention of homicide within people on their 
caseload.
    This problem includes both victims. If I can get the 
number, I think we will see that 16 percent of the murder 
victims in Philadelphia last year were on adult probation at 
the time; 22 percent of the murder arrests in Philadelphia were 
of people who were on adult probation at the time. This doesn't 
include State parole or juvenile probation.
    And what we may find is that if we look for the needles in 
the haystack among the 52,000 cases under adult probation, to 
look for the 108 victims and offenders identified in 2006, we 
will see that most of them were predictable, and predictable by 
a realization of the fact that 3 percent of that group is 
eventually going to be charged with murder or attempted murder, 
and that with new advanced data mining techniques and 
supercomputers coming down in price, it is now possible for 
every community supervision agency in the country to do what 
Professor Richard Burke has done, and we have recruited him to 
Philadelphia from UCLA precisely to help us work on this 
problem, which I think we can illustrate best with the key 
predictors, which start with something which has already been 
mentioned, and that is age at first arrest, arrest that is 
prosecuted as an adult by direct file to adult courts, along 
with current age.
    Those seem to be the two biggest factors in predicting who 
is likely to be charged with murder or attempted murder while 
on probation or parole with the county adult system in 
Philadelphia.
    And if I could just focus the Committee's attention on the 
age at first adult prosecution, whether or not the offender is 
convicted, the younger that age, the more likely it is that 
this person, when they go on adult probation, will be charged 
with murder or attempted murder within a several-year time 
frame.
    So starting with age 14, which is absolutely the highest 
murder, controlling for other factors that we have in this 
model, we see a rapid falling off with people being charged at 
the older age, but it is precisely, as Mr. Butts has said, it 
is precisely at those early ages that what we do is delay and 
we try to come to some other accomodation or even fail to get a 
conviction or an adjudication because the witnesses won't come.
    If we could say that what this graph tells us is that 70 
percent of all murders or attempted murders were committed by 
people who were charged as adults before the age of 21 and 40 
percent of them were committed by people who, in their previous 
lives were charged as adults before the age of 18.
    Another way of looking at this is the falling likelihood of 
being charged with homicide based on age. So the Committee's 
focus on youth is absolutely right. And the problem is that the 
juvenile justice system cuts it off at age 18, whereas the risk 
is really heavily concentrated under 21 to 25. The youth 
violence reduction partnerships in Philadelphia have set, 
actually, a 25 year definition of youth, which is consistent 
with that graph, showing us that offenders committing a murder 
on probation over age 45 in a very large sample is zero. But of 
those who are under 20, 15 percent were going to go on to be 
charged with murder or attempted murder.
    And so what I would like to do is to agree with Dr. Butts' 
assertion that most people in the juvenile justice system do 
not need the kind of intensive therapy that we have found that 
the people who are most likely to kill or be killed need 
because they are suffering from undiagnosed and untreated post-
traumatic stress disorder, they have chronic depression, they 
have anxiety disorder, they have things that are well known to 
be treatable within clinical psychology, but they are not 
getting that kind of treatment.
    And what Philadelphia has done is to create both a special 
unit to provide those kinds of services and a randomized, 
controlled trial to find out whether that approach is effective 
in not only reducing homicides and other serious crime, but 
also reducing the incarceration rate, which is very costly to 
the State and, of course, a waste of human potential.
    If we had a Federal grants program that would reward 
through a peer-review process, no earmarks, those proposals 
that develop an effective statistical prediction model and 
offer a randomized trial to evaluate the effects of their 
program, we would not be guaranteed to lower the homicide rate, 
but we would be guaranteed to develop a robust body of evidence 
on what works and what doesn't work to try to prevent homicide 
by young people.
    Thank you for this opportunity.
    [The prepared statement of Mr. Sherman follows:]
               Prepared Statement of Lawrence W. Sherman
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

   TESTIMONY OF DAVID M. KENNEDY, DIRECTOR, CENTER FOR CRIME 
 PREVENTION AND CONTROL, JOHN JAY COLLEGE OF CRIMINAL JUSTICE, 
                          NEW YORK, NY

    Mr. Kennedy. I would like to begin by offering my sincere 
thanks to Chairman Scott and to the Committee as a whole for 
holding this hearing and allowing me to be a part of it.
    Individual lives, the trajectory of families and 
communities and in a very real way the success of the American 
experiment are at stake here for this issue is infused with 
race, however much we might wish it were not.
    Getting this right means a new way of thinking and acting. 
I am now persuaded that we could put 100 times more gang 
members in prison or fund 100 times the number of prevention 
programs and that would not work either.
    My simplest and most profound message is that we know today 
how to address this problem in a way that saves lives, reduces 
incarceration, strengthens communities, bridges racial divides 
and improves the lives of offenders and ex-offenders.
    In 1996, the famous Boston Miracle cut youth homicide by 
two-thirds and homicide city-wide by half. What Boston did was 
both simple and profound. Boston assembled law enforcement, 
social service providers and community actors, including my old 
friend Teny, into a new partnership that created sustained 
relationships with Boston's gangs.
    The partners stood together and spoke with one voice face-
to-face with gang members. The violence was wrong and had to 
stop, that the community needed them alive and out of prison 
and with their loved ones, that help was available to all who 
would take it and that violence would be met with clear, 
predictable and certain consequences.
    The new approach worked with an existing law using existing 
resources. The results were shockingly different. The first 
face-to-face meeting with gang members took place in May 1996. 
By the fall, the streets were almost quiet. The city averaged 
around 100 homicides a year through mid-1996. In 1999, it had 
31.
    The approach has worked just as well in jurisdictions all 
over the country. The nature of these interventions does not 
allow the strongest random assigment evaluation design, but in 
Chicago a sophisticated quasi-experimental evaluation by 
University of Chicago and Columbia researchers of a Justice 
Department project showed homicide reductions in violent 
neighborhoods of 37 percent.
    When Richmond, in Chairman Scott's district, had its first 
offender call in, former Virginia U.S. Attorney Paul McNulty, 
now deputy attorney general, traveled back to Richmond to 
address the gang members personally. Last year at this time 
there had been 15 homicides in Richmond. This year, there have 
been four.
    I am working with a team in Cincinnati in Congressman 
Chabot's district and with the U.S. attorney in Milwaukee in 
Congressman Sensenbrenner's district, and I will say to them 
what I have said to their constituents: We are now essentially 
certain from years of experience that if the work is done 
seriously, the results will follow.
    Not all jurisdictions have implemented the strategies 
properly. Many that have, including Boston, the first and still 
best known site of when effective interventions fail, this has 
highlighted the need for attention to institutionalization and 
sustainability. Frameworks for adapting the strategy to the 
most demanding jurisdictions, such as Los Angeles, need to be 
developed, but the record is increasingly compelling.
    In the most recent strand of this work, begun in High 
Point, North Carolina, in Congressman Coble's district, we for 
the first time faced squarely the toxic racial tension that 
saturates these issues. In High Point, law enforcement spoke 
honestly to communities that enforcement was not succeeding, 
that they knew that, that they had never meant to do harm 
through relentless enforcement, but they had come to realize 
that they had.
    Communities looked inward and realized that in their anger 
over historic and present ills, they had not made it clear to 
their own young people that gang and drug activity was wrong 
and deeply damaging to the community. Both law enforcement and 
community came to understand that what they were dealing with 
was not so much depraved individuals as it was out of control 
peer group and street dynamics.
    So when the partnership met with High Point's drug deals, 
the community voice was clear and amazingly powerful. Scores of 
community members, including many immediate family, told the 
dealers that they were loved, needed, vital to the future of 
the community and would be helped, but were doing wrong, 
hurting themselves, hurting others and had to stop. 
Overwhelmingly, they have stopped.
    This is transformational. Gang violence and drug crime is 
an obscenity, but so is mass incarceration. It is important 
that at-risk youth get help, but it is equally important that 
seasoned offenders get help. It is important to have firm law 
enforcement, but it is even more important to have firm 
community standards. It is important that law enforcement take 
action when the dangerous will not stop and that the community 
supports them when they do.
    We now know that all of that can be brought to pass with in 
existing law, within existing resources and remarkably quickly.
    The demand for these interventions nationally is enormous. 
These demands cannot be met. All of us involved in this work 
are swamped with pleas for help that we cannot answer. There is 
no larger framework in place to go to scale to help localities 
understand how to implement these approaches, learn from the 
constant refinements and innovations that occur at the local 
level, address key issues, such as sustainability and enhance 
the state of the art.
    The Federal Government should make creating and supporting 
that framework a priority. We have learned profound lessons 
about how to address gangs, gang violence, the drug-driven 
crime that invariably travels alongside and, blessedly, how to 
begin to address the racial divides that undergird and 
perpetuate all of it and make us all less than we should be. We 
can do better.
    [The prepared statement of Mr. Kennedy follows:]
                 Prepared Statement of David M. Kennedy
    I would like to begin by offering my sincere thanks to Chairman 
Scott, and to the committee as a whole, for holding this hearing and 
allowing me to be a part of it. Our topic today is profoundly 
important. Individual lives, the trajectory of families and 
communities, and in a very real way the success of the American 
experiment are at stake. Both the problem and our response to the 
problem have grave implications. The life of an individual and a city 
can be destroyed by gang violence. But those lives can also be 
destroyed by the demonization of offenders and well-intentioned but 
profligate law enforcement: by the demonization of law enforcement and 
what follows in its wake, such as the toxic ``stop snitching'' thug 
culture; and by the well-intentioned failures of powerless prevention 
and intervention programs. Getting this right is crucial.
    Getting it right means a new way of thinking and acting. I am now 
persuaded that no amount of ordinary law enforcement, no amount of 
ordinary intervention, and no amount of ordinary prevention will get us 
what we want and need. I do my work amongst extraordinary people: 
police officers and prosecutors, gang outreach workers, social service 
providers, parents, ex-offenders. They work with profound seriousness 
and commitment. But it does not solve the problem, and I think it never 
will. We could put 100 times more gang members in prison, or fund 100 
times the number of prevention programs, and that would not work 
either. Our traditional framework for addressing this issue is simply 
unsuccessful.
    There is now more than ample evidence that there is a different and 
far better framework: one that is successful. My simplest and most 
profound message today is that we know, today, how to address this 
problem: in a way that saves lives, reduces incarceration, strengthens 
communities, bridges racial divides, and improves the lives of 
offenders and ex-offenders. The evidence has been accumulating for over 
a decade and is now extremely persuasive. In 1996, the famous ``Boston 
Miracle'' cut youth homicide by two-thirds and homicide city-wide by 
half.\1\ The Boston work was fundamentally simple and unexpectedly 
profound. Violence and drug activity in troubled neighborhoods is 
caused predominantly by a remarkably small and active number of people 
locked in group dynamics on the street. Boston assembled law 
enforcement, social service providers, and community actors--parents, 
ministers, gang outreach workers, neighborhood associations, ex-
offenders, and others--into a new partnership that created sustained 
relationships with violent groups. The partners stood together and 
spoke with one voice face-to-face with gang members: that the violence 
was wrong and had to stop; that the community needed them alive and out 
of prison and with their loved ones; that help was available to all who 
needed it; and that violence would be met with clear, predictable, and 
certain consequences.
---------------------------------------------------------------------------
    \1\ http://www.ojp.usdoj.gov/nij/pubs-sum/188741.htm
---------------------------------------------------------------------------
    There are many myths about Boston. It was not draconian; there were 
very few arrests, and most enforcement used ordinary state law and 
probation supervision. It did not wrap every at-risk youth with 
services and support; we did not have the resources or capacity to do 
that. It did not rely primarily on law enforcement, or services, or the 
community; until the full partnership and strategy was created, no 
single group was very effective. But with the new approach, within 
existing law, using existing resources, everything changed. The first 
face-to-face meeting with gang members took place in May of 1996. By 
the fall, the streets were almost quiet. At its worst, in 1990, the 
city had 152 homicides. In 1999, it had 31.
    The approach worked just as well elsewhere. Minneapolis was next--
in the summer of 1996, there were 32 homicides; Minneapolis began its 
work over the winter, and in the summer of 1997, there were eight. The 
Indianapolis Violence Reduction Partnership, launched in 1998, cut 
homicide city-wide by 40%, and robberies and gun assaults in one of its 
most dangerous neighborhoods by 49%.\2\ In Stockton, California 
Operation Peacekeeper, implemented in late 1997, cut homicide among 
Hispanic gangs by about three-quarters.\3\ In Rochester, New York, gang 
violence fell by two-thirds between 2004 and 2005. In Chicago, a 
Project Safe Neighborhoods initiative evaluated by the University of 
Chicago and Columbia University cut homicide among violent parolees by 
nearly 75%; they became nearly as safe as residents of the safest 
neighborhoods in the city.\4\ In Lowell, Massachusetts a strategy 
adapted to Asian gangs shut down shooting almost entirely.\5\ In Nassau 
County, Long Island, the strategy has been effective against a gang 
problem that includes the notorious MS-13 network. In High Point, North 
Carolina, in Congressman Cobles's district, a parallel approach aimed 
at drug markets has virtually eliminated overt drug activity, violent 
crime is down over 20%, and a rich community partnership is working--
often successfully--to help former drug dealers regain their lives.\6\ 
Inspired by High Point, Winston-Salem, Greensboro, and Raleigh have all 
followed suit, as have Newburgh, New York and Providence, Rhode Island, 
with others on the way. In Richmond, in Chairman Scott's district, a 
city partnership began meeting with gangs city-wide in October of last 
year. I spoke with police department officials last week, before being 
invited to this hearing, and they are getting the same wonderful 
results we have come to expect. Last year at this time there had been 
fifteen homicides in Richmond. This year, there have been four. I am 
working with a team in Cincinnati, in Congressman Chabot's district, 
and with US Attorney William Lipscomb in Milwaukee, in Congressman 
Sensenbrenner's district, and I will say to them what I have said to 
their constituents: we are now essentially certain, from years of 
experience, that if the work is done seriously, the results will 
follow.
---------------------------------------------------------------------------
    \2\ McGarrell, Edmund and Steven Chermak (2004) ``Strategic 
Approaches to Reducing Firearms Violence: Final Report on the 
Indianapolis Violence Reduction Partnership'' Final report submitted to 
the National Institute of Justice, Washington DC
    \3\ Wakeling, Stewart 2003 ``Ending Gang Homicide: Deterrence Can 
Work'' California Attorney General's Office/California Health and Human 
Services Agency
    \4\ Papachristos, Andrew V., Tracey Meares, and Jeffrey Fagan 
(2005) ``Attention Felons: Evaluating Project Safe Neighborhoods in 
Chicago'' The Law School, The University of Chicago, available at 
http://papers.ssrn.com/sol3/papers.cfm?abstract--id=860685
    \5\ Braga, Anthony A., Jack McDevitt, and Glenn L. Pierce. 
``Understanding and Preventing Gang Violence: Problem Analysis and 
Response Development in Lowell, Massachusetts.'' Police Quarterly 9, 
no. 1 (2006).
    \6\ See Wall Street Journal ``Novel Police Tactic Puts Drug Market 
Out of Business'' September 27, 2006 http://www.publicpolicy.umd.edu/
news/Kleiman%20Reuter%20WSJ.pdf
---------------------------------------------------------------------------
    This is not an unalloyed success story. Not all jurisdictions have 
implemented the strategies properly. Some who have (including Boston, 
the first and still best-known site) have let effective interventions 
fall apart, highlighting the need for attention to institutionalization 
and sustainability (notably, Boston has recently expressed its 
commitment to reinstating Ceasefire in the face of a spiraling homicide 
rate). Frameworks for adapting the strategy to the most demanding 
jurisdictions, such as Los Angeles, need to be tested and refined. And 
the theory of the gang strategy--that cities have basic gang dynamics 
that need to be addressed as a whole--has made it impossible to set 
aside offenders, gangs, or neighborhoods as ``controls'', thus 
foreclosing the strongest random-assignment social science evaluations.
    The evidence, however, is now quite clear. City after city has 
gotten the same kind of results. The strongest evaluation, the 
sophisticated quasiexperimental design used by the Chicago and Columbia 
researchers, shows the same impact as the original city-wide studies. 
The approach has been endorsed by both the Clinton Administration, 
through its Strategic Approach to Community Safety Initiative, and the 
Bush Administration, through its flagship Project Safe Neighborhoods 
initiative \7\ and the Executive Office for United States Attorneys 
(EOUSA). When Richmond had its first offender call-in early last year, 
former Virginia US Attorney Paul McNulty, now deputy attorney general, 
traveled back to Richmond to address the gang members personally. It 
has been endorsed by groups as diverse as Fight Crime Invest in Kids, 
in a report presented by law enforcement legend William Bratton; \8\ by 
the Children's Defense Fund; \9\ and by the National Urban League.
---------------------------------------------------------------------------
    \7\ See, for example, http://www.ojp.usdoj.gov/BJA/pdf/Offender--
Notification--Meetings.pdf
    \8\ http://www.fightcrime.org/reports/gangreport.pdf
    \9\ http://www.childrensdefense.org/site/DocServer/gunrpt--
revised06.pdf?docID=1761
---------------------------------------------------------------------------
    The story thus far is only a beginning. The Boston work is now over 
ten years old, and much has been learned during that time. The basic 
approach has always consisted of three essential elements: law 
enforcement, social service providers, and communities, all directly 
engaged with offenders. The most recent work, developed in High Point, 
has begun to show us how extraordinarily important the community 
component is, particularly what I have come to think of as ``the moral 
voice of the community''. In the High Point work, we for the first time 
faced squarely the heavily and toxically racialized narratives that lie 
at, or barely below, these issues. When law enforcement feels that 
communities have completely lost their moral compass, they will not 
think to work with or influence communities. When communities feel that 
law enforcement is part of a conspiracy to destroy the community, they 
will not think to work with or influence law enforcement. When networks 
of offenders tell each other that they are not afraid of prison, not 
afraid to die, and have to shoot those who disrespect them, then they 
will do so.
    But if I have learned anything during my career, it is that law 
enforcement desperately wishes to help, that communities desperately 
want to be safe and productive, and that nobody wants to go to prison 
or die. This is the transformative lesson of the High Point work: that 
none of us likes what is going on. Law enforcement does not want to 
endlessly arrest and imprison, without making any impact. Communities 
do not want to live with violence and fear. Even gang members and drug 
dealers love their families and want to be safe and successful. 
Everybody wants those who will take help to have it. Everybody wants 
the truly dangerous to be controlled. We do not think we are of one 
mind, but in the most important ways, we are.
    In High Point, law enforcement spoke honestly to communities: that 
they were not succeeding, and they knew it; that they had never meant 
to do harm to communities through enforcement action, but had come to 
realize that they had; that they would like to act differently. 
Communities looked inward and realized that in their anger over 
historic and present ills, they had not made it clear to their own 
young people that gang and drug activity was wrong and deeply damaging 
to the community. Both law enforcement and community came to understand 
that what they were dealing with was not so much individuals making bad 
decisions as peer, group, and street dynamics. So when the partnership 
met with High Point's drug dealers, the community voice was powerful, 
clear, and amazingly powerful. Scores of community members, including 
many immediate family, told the dealers that they were loved, needed, 
vital to the future of the community, would be helped: but were doing 
wrong, hurting themselves and others, and had to stop. Overwhelmingly, 
they heard, and they did. Very, very few had to be arrested 
subsequently, and many are now living very different lives. And 
offenders, communities, and law enforcement see each other in very 
different ways than they did only a short time ago.
    This is transformational. Gang violence and drug crime is vicious, 
but so is mass incarceration. It is important that ``at risk youth'' 
get prevention, but it is equally important that seasoned offenders get 
it. It is important to have firm law enforcement, but it is even more 
important to have firm community standards. It is important that law 
enforcement take action when all else has failed, and that the 
community support them when they do. We now know that all of that can 
be brought to pass: within existing law, within existing resources, and 
remarkably quickly. This work is not just about crime prevention; it is 
about redemption and reconciliation. And it is real.
    I want to say again that I cannot imagine any scale of investments 
in traditional activities, or even the starkest increase in legal 
sanctions, producing these results. We can do this today, immediately. 
If, ten years ago, the medical community had discovered a way to reduce 
breast cancer deaths among middle-class white women by 70%, every 
hospital in the country would now be using that approach. We have 
learned something that profound about this kind of crime problem. We 
should act like it.
    The demand for these interventions is tremendous. Currently there 
is a small (but growing) number of researchers and practitioners who 
understand the underlying principles, have successfully implemented the 
strategies, and who continue to refine the basic approach. The logic of 
the approach is now quite well developed, as is its application in 
meaningfully different circumstances (west coast gangs vs. loose drug 
crews, for example); key analytic and organizational steps necessary 
for implementation; supporting aspects such as data and administrative 
systems; places in the process where errors are likely to be made; and 
the like. This is not a ``cookbook'' process, but the basic path and 
how to manage it is quite well understood. At the same time, the demand 
vastly outstrips current capacity to address it. New interventions are 
primarily driven by isolated researchers operating in ``Johnny 
Appleseed'' mode, working with individual jurisdictions to address 
their local problems. These researchers cannot begin to respond to even 
the requests that come to them directly. There is also increasing 
attention to these approaches from national groups such as the Urban 
League and the Children's Defense Fund. These demands cannot be met. 
When EOUSA held a two-day conference at the National Advocacy Center in 
Columbia, South Carolina in January of this year, some 200 people came 
from all over the country; many left committed to doing the work and 
are calling for help, but we have no way to give it to them.
    There is no larger framework in place to ``go to scale:'' to help 
implement the approaches where they are needed, learn from the constant 
refinements and innovations that occur at the local level, address key 
issues such as sustainability, and enhance the state of the art. The 
Justice Department's Project Safe Neighborhoods, which strongly 
endorses these strategies, has gone some distance in supporting these 
needs, but additional focused and very practical help to jurisdictions 
nationally is badly needed.
    A national effort to go to scale is entirely possible. It would 
have something like the following elements:

        <bullet>  A national set of ``primary'' jurisdictions, 
        distributed regionally and chosen to incorporate the range of 
        gang issues (i.e., west coast gangs, Chicago gangs, MS-13, drug 
        crews);

        <bullet>  Close, continuing support from the current pool of 
        experienced researchers and practitioners to work with 
        researchers and practitioners in these jurisdictions to help 
        them implement the strategies locally;

        <bullet>  Regular convening of teams from the primary 
        jurisdictions, teams from a larger set of ``secondary'' 
        jurisdictions, the core pool of researchers and practitioners, 
        and a larger pool of ``secondary'' researchers and 
        practitioners. In these sessions, the basic strategies would be 
        explained, implementation and implementation issues addressed; 
        core technical assistance provided; on-the-ground experience 
        from the primary sites shared and analyzed; innovations 
        identified and shared; and key issues needing more detailed 
        attention identified.

        <bullet>  Key documents such as implementation guides, research 
        and assessment templates, process histories, case studies, 
        evaluations, ``lessons learned'', and the like developed and 
        distributed. These could be bolstered with more or less real-
        time websites supporting implementation, answering common 
        questions, presenting site findings and progress, noting local 
        innovations, etc.

        <bullet>  As the ``primary'' sites solidified, the focus could 
        shift to the ``secondary'' sites, which would now be well 
        prepared to undertake their own initiatives. Horizontal 
        exchanges between sites by a now considerably larger pool of 
        experienced researchers, law enforcement, service providers, 
        and community actors would now be possible. Continued 
        convenings, or perhaps a series of regional convenings, would 
        support the work in the new sites, address issues arising in 
        the original sites, and allow the national community working on 
        these issues to learn from local experience. This ``seeding'' 
        process could continue as long as necessary to ``tip'' national 
        practice to regarding these strategies as the norm. The large 
        number of actors participating in the effort would add to this 
        through their natural participation in local and national 
        discussions, writing and publishing, professional activities, 
        and the like.

        <bullet>  In this setting, a core research agenda, addressing 
        for example new substantive crime problems and 
        institutionalization and accountability issues, could be framed 
        and pursued. Findings could be translated quite directly into 
        action on a national scale.

    Funding for this effort would be necessary for the technical 
assistance, convening, documentation/dissemination, and site exchange 
components. While additional funding for operational elements would of 
course be welcome, experience shows that redirecting existing resources 
in alignment with the basic strategy can produce dramatically enhanced 
results.
    We now know how to address gang issues of great significance to 
troubled communities and to the nation. Despite this fact, 
understanding and implementation is proceeding slowly and is not likely 
to govern national policy and practice without a deliberate strategic 
effort. The federal government should take the lead in ensuring that 
this happens.

          TESTIMONY OF JAMES CORWIN, CHIEF OF POLICE, 
                        KANSAS CITY, MO

    Chief Corwin. Thank you.
    Mr. Chairman, Members of the Subcommittee on Crime, 
Terrorism, and Homeland Security, thank you for the opportunity 
to present this testimony.
    My name is James Corwin and I have been a member of the 
Kansas City, Missouri, Police Department since 1979 and the 
chief of the department since 2004.
    As a law enforcement leader, I have been committed to 
community-oriented policing approaches and problem solving in 
Kansas City. This approach has served our city well, especially 
the year before last when we faced a spike in homicide, going 
from 91 in 2004 to 127 in 2005. The homicide rate went back 
down in 2006.
    Groups of individuals, typically neighborhood-based groups, 
rather than traditional gangs like Crips, Bloods and MS-13, 
were involved in many of those homicides. That is why I am 
grateful for this opportunity to share information with you 
about what works to reduce youth and gang violence.
    I am also a member of the Fight Crime: Invest in Kids, an 
organization of more than 3,000 police chiefs, sheriffs and 
prosecutors and victims of violence who have come together to 
take a hardnosed look at the research on what keeps kids from 
becoming criminals. As a police chief, I know there is no 
substitute for tough law enforcement, yet law enforcement 
leaders like myself know better than anyone that we cannot 
arrest and imprison our way out of this crime problem.
    Fortunately, research and our experience has shown that 
targeted investments that help kids get a good start in life 
and that intervene effectively to redirect juveniles onto 
different paths and prevent crime and make our communities 
safer.
    To reduce crime in our communities, we should begin at the 
beginning. Beginning at the beginning means offering services 
to new moms, such as voluntary in-home parent coaching and 
ensuring that kids have access to quality early education and 
childcare. After school programs during the hours of 3 p.m. to 
6 p.m., primetime for juvenile crime, on school days can also 
help in preventing crime.
    Law enforcement is doing the best job we can do to deal 
with juvenile crime when it happens and to make sure dangerous 
juveniles are taken off the street. Most juveniles arrested are 
not likely to become serious offenders. Nationally, 6 in 10 
juveniles brought before a juvenile court for the first time 
will not return to court on another charge. In recent years, 
there have been approximately 100,000 juveniles in custody 
nationwide. The vast majority of these troubled youth will be 
released back into the community with their expected prime 
crime years ahead of them and facing a re-arrest rate up to 75 
percent. But it doesn't have to be that way.
    A significant amount of the research has identified several 
effective approaches to help young offenders avoid committing 
further crimes, thereby enhancing public safety. For the most 
dangerous young offenders, especially those who are involved in 
a violent gang, the combination of intensive police 
supervision, expedited sanctions for repeat violence and 
expedited access to jobs, drug treatment and other services, a 
carrot-and-stick approach has shown in a number of cities that 
it can cut homicides among violent offenders in high-crime 
neighborhoods.
    In Chicago, for example, when the carrot-and-stick approach 
area, there was a 37 percent drop in quarterly homicide rates 
when the project was implemented, while the decline in homicide 
in another similar neighborhood during the same period was 18 
percent.
    Simply warehousing high-risk offenders during their time in 
custody is not adequate. They need to be required to do the 
hard work of confronting and changing their antisocial beliefs 
and behaviors. Aggression replacement therapy, ART, can teach 
teens to stop and consider the consequences of their actions, 
to think of other ways of responding to interpersonal problems 
and to consider how their actions will affect others.
    Young people in Brooklyn gangs without ART services had 
four times the number of arrests of similar young gang members 
receiving ART.
    For offenders who do not need high-security lock up, 
individual placement in multidimensional treatment foster care, 
or MTFC, home can be used. Foster care may sound like a pass 
for juveniles who should be paying a more severe price for the 
crime they have committed, but for teens who are often used to 
running the streets and see a month in custody as just another 
chance to socialize with delinquent friends or learn new 
criminal behaviors, this is a more controlled experience and a 
tough intervention.
    The MTFC approach cuts the average number of repeat offense 
for serious delinquent juveniles in half. MTFC saves the public 
an average of over $77,000 for every juvenile treated.
    Similar cost-effective models that can be implemented in 
communities are functional family therapy programs and 
multisystemic therapy. Approximately 500,000 juveniles a year 
could benefit from evidence-based like FFT, MST, MTFC, yet only 
34,000 are currently being served.
    Here are the steps that Congress can take to implement 
those proven, effective crime-prevention therapies: implement 
effective, research-proven strategies, such as voluntary in-
home parenting coaching, quality early childhood care and 
education and bullying prevention programs; ensure that any 
legislation to address gang violence provides funding for 
communities to implement comprehensive, coordinated carrot-and-
stick response; enact and fund legislation such as the Second 
Chance Act to enable juvenile ex-offenders to successfully 
reenter their communities; reauthorize, strengthen and increase 
funding for Federal juvenile justice and delinquency prevention 
programs.
    Being tough on violent crime is critical. However, once a 
crime has been committed, neither police nor prisons can undo 
the agony of the crime victim and repair the victim's shattered 
life. Thus prevention and intervention programs that use 
research-based techniques to prevent further crime and critical 
tools for making our neighborhoods safe.
    I and my colleagues at Fight Crime: Invest in Kids, who are 
leaders of American law enforcement, are grateful that the 
Subcommittee is holding today's hearing and we look forward to 
working with you in implementing these recommendations.
    Thank you.
    [The prepared statement of Chief Corwin follows:]
                   Prepared Statement of James Corwin
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Scott. We have been joined by the gentleman from 
California, Mr. Lundgren.
    Thank you.
    Ms. Fernandez?

TESTIMONY OF MAI FERNANDEZ, LEGAL AND STRATEGY DIRECTOR, LATIN 
             AMERICAN YOUTH CENTER, WASHINGTON, DC

    Ms. Fernandez. Good morning, Mr. Chairman and Members of 
the Committee. I want to thank you all for having me here 
today.
    And I would also like to invite you all to the Latin 
American Youth Center, which is about a 20-minute cab ride here 
from Congress. So if you want to see a program that works, get 
in a cab, go 20 minutes north and you will be there.
    I would like to tell you a little bit about the Latin 
American Youth Center where I work. We have been in D.C. for 
over 30 years and a little over a year ago we opened three 
sites in Maryland. We are a community-based, multicultural, 
multilingual youth and family development center. We provide 
educational programs and tutoring to enable youth who are in 
school to stay in school and go on to college. For young people 
who have dropped out, we provide GED preparation and workforce 
training. We offer alternatives to incarceration programs for 
youth inside the juvenile justice system and reentry programs 
for youth exiting it.
    Additionally, we provide counseling and substance abuse 
assistance, foster care and residential placement for youth in 
need of such services.
    Through our different programs, we serve about 3,000 youth 
annually. I think it is safe to say that many of our youth and 
young people are gang involved or have been gang involved at 
some point in their life. However, only a small number of our 
young people are involved in criminal activity. Let me explain.
    Many of our parents of our youth emigrated to the United 
States to find safety and a better way of life for their 
children. On arriving in the United States, many of these 
parents find themselves needing to work two and three jobs just 
to make ends meet. Keeping the family clothed, fed and housed 
becomes the priority. Unfortunately, this means that children 
are not provided the proper supervision, and schools are not 
prepared to meet this need.
    The lack of supervision often leads to boredom and a sense 
of insecurity, which causes the children to join gangs. Joining 
a gang gives youth a group of friends to hang out with and a 
sense of security which they cannot get elsewhere in their 
lives. These kids are not super-predators. They are young 
people looking for a sense of belonging. Most youth who are in 
gangs are not criminals.
    Having said this, I am a former prosecutor from Manhattan 
and do believe that when a gang member gets involved in 
criminal activity, there needs to be decisive law enforcement 
response. Three and a half years ago, our neighborhood, 
Columbia Heights, D.C., where the youth center is located, was 
plagued with a spree of Latino gang-related murders. Law 
enforcement acted swiftly in their investigation of these cases 
and apprehended the perpetrators.
    Several of these young people are now serving life 
sentences. The law enforcement response sent a clear message to 
other gang-involved youth: You commit crimes, you will be 
punished.
    During this gang crisis, both the community and the police 
realized they should not only respond to gang-related criminal 
activity, but should also work together to prevent it. As a 
result, the Gang Intervention Partnership, the GIP, was 
created. The GIP brings together police, probation officers, 
prosecutors, community-based and social service providers and 
develops intervention strategies for youth who are at high risk 
for committing crimes.
    GIP has focused not just on reducing violent behavior but 
on addressing the myriad of social and economic issues, such as 
family situations, employment status, school attendance, peer 
relationships and limited recreational opportunities which can 
create environments that lead to violence amongst young people. 
GIP's holistic approach marries prevention and intervention 
initiatives with intelligence gathering and law enforcement 
efforts, providing a new model for reducing gang violence.
    As a GIP community partner, the Latin American Youth Center 
has focused its efforts on outreach to gang-related youth, 
working closely with gang-involved young people to offer them 
educational, art, recreational and leadership programs as well 
as other opportunities to help them live healthy lives and 
connecting with caring adults.
    From its inception, GIP has concentrated on a set of core 
strategies, conducting intensive targeted police work and 
building on strong police community partnerships, providing 
targeted outreach to gang-related youth and their families, 
educating parents and community members and improving and 
expanding access to service to critical families and 
strengthening and diversion.
    What often occurs is that a community member will find out 
that a youth is in some kind of trouble. The members of the GIP 
come together to ensure that the youth is supervised, that he 
or she is involved in structured activities. In instances where 
the youth has faced real security problems, arrangements have 
been made to place a youth in witness protection programs.
    This last fall, the GIP program was independently evaluated 
by the Center for Youth Policy Research. The evaluations found 
that the GIP's comprehensive approach dramatically reduced 
Latino gang-related violence in D.C. Their findings cited that 
there has not been a Latino gang-related homicide in the 
District of Columbia since October 9, 2003. Our results are 
significant.
    In a 4-year period prior to forming the GIP, there were 40 
shootings and stabbings. Twenty of those victims died. In the 3 
years since the GIP has been developed, there have been five 
shootings and stabbings. Only one has led to a homicide.
    In addition to reducing violence, the evaluation found that 
GIP achieves each of its other four goals: decreasing gang 
membership, reducing the number of gang-related suspensions in 
targeted schools, increasing the involvement of at-risk youth 
in recreational and productive activities and building 
community capacity and consciousness about gangs.
    Thank you very much.
    [The prepared statement of Ms. Fernandez follows:]
                  Prepared Statement of Mai Fernandez
    Good afternoon, Chairman Scott and members of the Subcommittee. It 
is a pleasure to be before you today to speak on issues related to 
youth violence and gang interventions that work.
    Before I go into the substance of my testimony, I would like to 
tell you a bit about the Latin American Youth Center (LAYC) where I 
work. We have been in DC for more than years and a little over a year 
ago we opened 3 offices in Maryland. We are a community-based, multi-
cultural and multi-lingual youth and family development center. We 
provide educational programs and tutoring to enable youth who are in 
school to stay in school and go on to college. For young people who 
have dropped out of school, we provide GED preparation and work-force 
training. We offer an alternative to incarceration program for youth 
inside the juvenile justice system and re-entry programs for youth 
exiting it. Additionally, we provide counseling, substance abuse 
assistance, foster care and residential placement for youth in need of 
such services.
    Through our different programs, we serve about 3,000 youth 
annually. I think that it is safe to say that many of them are gang 
involved or have been gang involved at some point in their life. 
However, only a small number of our kids are involved in criminal 
activity.
    Let me explain. Many of the parents of our youth immigrated to the 
United States to find safety and a better way of life for their 
children. Upon arriving in the U.S., many of these adults find 
themselves needing to work 2 to 3 jobs just to make ends meet. Keeping 
the family clothed, fed and housed becomes the priority. Unfortunately, 
this means that children are not provided the supervision that they 
need.
    The lack of supervision often leads to boredom and a sense of 
insecurity which cause the children to join gangs. Joining a gang gives 
a youth a group of friends to hang out with, and a sense of security 
which they cannot get elsewhere in their lives. These kids are not 
super-predators--they are kids looking for a sense of belonging. Most 
youth who are in gangs are not criminals.
    Having said this, I am a former prosecutor from Manhattan, and do 
believe that when gang members get involved in criminal activity there 
needs to be a decisive law enforcement response. Three and half years 
ago, Columbia Heights, D.C., where the Youth Center is located, was 
plagued with a spree of Latino gang-related murders. Law enforcement 
acted swiftly in their investigation of the cases and apprehended the 
perpetrators. Several of these young people are now serving life 
sentences. The law enforcement response sent a clear message to other 
gang-involved youth--if you commit crimes you will be punished.
    During this gang crisis, both the community and the police realized 
that they should not only respond to gang related criminal activity, 
but should also work together to prevent it. As a result the Gang 
Intervention Partnership--the GIP--was created. The GIP brings together 
police, probation officers, prosecutors and community-based social 
service providers to develop intervention strategies for youth who are 
at high risk of committing crimes.
    GIP has focused not just on reducing violent behavior, but on 
addressing the myriad social and economic issues, such as family 
situation, employment status, school attendance, peer relationships, 
and limited recreational opportunities, which can create environments 
that lead to violence among young people.
    GIP's holistic approach marries prevention and intervention 
initiatives with intelligence gathering and enforcement efforts, 
providing a new model for reducing gang violence.
    As a GIP community partner, the Latin American Youth Center has 
focused its efforts on outreach to gang-related youth, working closely 
with gang-involved young people to offer them arts, recreational and 
leadership programs as well as other opportunities to help them live 
healthy lives and connect them to caring adults.
    From its inception, GIP has concentrated on a set of core 
strategies: 1) Conducting intensive and targeted police work and 
building strong police/community partnerships; 2) Providing targeted 
outreach to gang-related youth and their families; 3) Educating parents 
and community members and; 4) Improving and expanding access to 
services critical to family strengthening and diversion.
    What often occurs is that a community member will find out that a 
youth is in some kind of trouble. The members of the GIP come together 
to ensure that the youth is supervised and that he/she is involved in 
structured activities. In instances where the youth has faced real 
security problems, arrangements have been made to place the youth in 
witness protection programs.
    This last fall, the GIP program was independently evaluated by the 
Center for Youth Policy Research. The evaluators found that the GIP's 
comprehensive approach dramatically reduced Latino gang-related 
violence in DC. There finding's sited that there has not been a Latino 
gang-related homicide in the District of Columbia since October 9, 
2003.
    The numbers of youths shot or stabbed in the Columbia Heights/Shaw 
neighborhoods dropped from 40 in the four-year period before GIP 
(summer 1999-summer 2003) to five in the three years since GIP was 
created (August 2003-August 2006). In the four years preceding GIP, 21 
young people died as a result of the 40 violent attacks. Since GIP was 
introduced, just one of the five shootings/stabbings resulted in loss 
of life and each of the shooting cases has been closed by MPD within 48 
hours.
    In addition to reducing violence, the evaluation found that GIP 
achieved each of its other four major goals--decreasing gang 
membership; reducing the number of gang-related suspensions in targeted 
schools; increasing the involvement of at-risk youth in recreational 
and other productive activities; and building community capacity and 
consciousness about gangs.
    The evaluation demonstrates clearly that when there is close 
coordination and collaboration between law enforcement, government 
officials, the schools and community partners, there can be great 
strides in battling youth violence.
    Importantly, the evaluation shows that a youth who has been 
involved in gang-related criminal activity can turn around his/her 
life.
    GIP's success results from not focusing on one piece of the gang 
equation, but instead dealing comprehensively with the education, 
prevention and enforcement pieces and then coordinating these 
activities in a very disciplined manner.
    For other jurisdictions working to reduce gang-related violence, 
the Gang Intervention Partnership offers three years of experience, 
providing a guide to some of challenges and obstacles that may arise 
when a community puts together a holistic, multi-agency and highly 
effective response.
    In the past three years, we've learned a lot through the GIP--about 
the importance of communication, coordination and collaboration. About 
the need for multiple sectors to work together. About the need to 
respond quickly and aggressively to even small incidents--so that 
they're dealt with before they flare up into violence or additional 
violence. We've also learned how important it is to be in the schools--
to be getting information to the schools as well as back from the 
schools.
    Our community has been able to tailor an effective and appropriate 
response to gang-related crime in our area. I want to emphasize, 
however, that different gangs have different ways of operating and, 
therefore, community leaders need flexibility to respond to the unique 
gang problems in their area.
    Even within a small geographic area such as DC, the types of 
interventions that will work in Columbia Heights may, for example, 
differ from the precise intervention needed in Southeast.
    The Federal Government should facilitate the process of developing 
community responses to gang prevention and intervention by providing 
resources and technical assistance. Congress should not pass 
legislation that applies a universal solution to all jurisdictions.
    Thank you for your time. I am available to answer questions at this 
time.

    Mr. Scott. Thank you.
    Mr. Logli?

   TESTIMONY OF PAUL LOGLI, CHAIRMAN OF THE BOARD, NATIONAL 
      DISTRICT ATTORNEYS ASSOCIATION, WINNEBAGO COUNTY, IL

    Mr. Logli. Thank you. And I want to thank you, Chairman 
Scott, on behalf of the National District Attorneys Association 
for this opportunity to present our concerns about gang 
violence and to share some thoughts on what we as America's 
prosecutors and you, the Congress, can do to counter this 
growing threat to public safety.
    The views that I express today represent the views of our 
association and the beliefs of thousands of local and State 
prosecutors who have primary jurisdiction in the matter of 
violent crime and specifically in the area of youth and gang 
crime.
    I was privileged to testify before this very same Committee 
2 years ago and I am going to use some of that testimony as a 
basis for my testimony today.
    After hearing many of the members of this distinguished 
panel, there is not a whole lot new that we can add. There are 
some very fine programs out there that I think America's 
prosecutors are embracing. Many of those programs wouldn't work 
except for the involvement of local prosecutors. And so I want 
to disabuse anyone of the idea that I or any of the other local 
prosecutors are only concerned with trying and imprisoning gang 
members.
    To counter the gang problem, we need effective community 
partnerships, to deter our children from becoming enamored with 
the gang life. While we need strong and effective criminal 
prosecution, we also need those diversion programs to prevent 
young people from making bad decisions, getting into trouble, 
bringing back those that have already started to make bad 
decisions and gotten into trouble. And, lastly, we need to 
develop meaningful reentry programs so that those persons who 
have already been convicted and sent to prison can somehow be 
reintegrated back into our societies with a chance to succeed.
    When I testified 2 years ago, based on recent Federal 
reports we estimated there were 731,000 gang members. Two years 
later, in the same report, and that was the report for 2004, it 
appears that there are now 760,000 gang members, and I heard a 
figure this morning from the Chairman that it is estimated that 
today, 2007, there are about 850,000 gang members. So the 
problem continues to grow as we discuss this problem and try to 
define strategies.
    But numbers don't tell the full story. If you talk to any 
local prosecutor, you will find out that more and more of the 
gang members are increasingly young, 12 or 13 years old. We 
have an increasing problem with witness intimidation. People 
who do step forward to testify against gang crime many times 
pay the price with their very lives. We see that gang members 
are now using technology more and more. They have their own Web 
sites. Major gangs have their own Web sites. Google up the gang 
names.
    We have disputes that have begun in our community, my 
jurisdiction of Rockford, Illinois, where we think we have got 
the situation kind of calmed down, well, then the gang members 
use their pages on MySpace to further disrespect other gang 
members, competing gang members, and the fight begins again. 
What starts on MySpace erupts into violence in the community.
    We see gangs out of Chicago moving into central Wisconsin 
with the Native Americans and developing new drug markets by 
introducing cheap drugs and then eventually raising the prices 
when they get the young members of the tribes in Central 
Wisconsin addicted to drugs. Very effective marketing 
strategies. These are sophisticated organizations.
    We need the combined efforts of State, local and Federal 
law enforcement, but local prosecutors can lead community 
involvement. We are connected to the community. We can bring 
those resources together and combine effective prosecution for 
those gang members who have already stepped over the line, but 
also mobilizing the community to prevent it in the first place.
    We welcomed Mr. Kennedy to our jurisdiction just recently 
and we are laying the groundwork for a program that he 
described this morning within my jurisdiction.
    We, in our team effort, welcome the assistance from Federal 
law enforcement, the ATF, ICE, Secret Service, FBI, the local 
U.S. Attorneys Office. And, in fact, the local U.S. Attorney is 
working with us on Mr. Kennedy's program and helped to bring 
several of our local people down to the National Advocacy 
Center in Columbia, South Carolina for training just in that 
program.
    We could also use Federal assistance in the area of 
preventing witness intimidation. We support, in principle, I 
believe we support specifically H.R. 933, introduced by Mr. 
Cummings, that would provide Federal support for local efforts 
to protect witnesses to violent crime.
    We need to be proactive in our communities, to identify 
gang threats early and to respond decisively. As we testified, 
the gang problem is growing.
    On behalf of America's prosecutors, I and the National 
District Attorneys Association urge you to take steps to 
provide Federal assistance to State efforts to fight our gang 
problems, to provide us with the resources to effectively 
prosecute and to protect victims and the witnesses to violent 
crime.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Logli follows:]
                    Prepared Statement of Paul Logli
    My name is Paul Logli and I am the elected State's Attorney in 
Winnebago County, Illinois. I am now the Chairman of the Board of the 
National District Attorneys Association.
    I want to thank Chairman Scott, on behalf of the National District 
Attorneys Association, for the opportunity to present our concerns 
about gang violence and share some thoughts on what as America's 
prosecutors, and you the Congress, can do to counter this threat to 
public safety. The views that I express today represent the views of 
our Association and the beliefs of thousands of local prosecutors 
across this country.
    I was privileged to testify before you in April 2005 and would like 
to begin with that testimony as the juncture for where we go today. I 
would also like to commend to you the testimony by the Honorable Robert 
P. McCulloch, Prosecuting Attorney of St. Louis County, Missouri, when 
he was NDAA president, before a hearing of the Senate Committee on the 
Judiciary on September 17, 2003
                          local gang problems
    When I testified before you previously I cited the 2002 National 
Youth Gang Survey, published by the Office of Juvenile Justice and 
Delinquency Prevention of the Department of Justice which then 
estimated that there were approximately 731,500 gang members and 21,500 
gangs were active in the United States in 2002.
    That same report for 2004 (published in 2006) indicates that the 
number of gang members had grown to 760,000 and there were 24,000 
gangs; increases of 4% and 12% respectively in a 2 year period. Please 
remember that this report is three years old and we can only expect 
that the next will show a comparable or even greater increase.
    Two years ago in April 2005, I testified before this very same 
Committee and described the gang situation in my jurisdiction of 
Winnebago County, Illinois, population 290,000. Let me remind you, my 
jurisdiction is located in the top tier of counties in the State of 
Illinois. We are an easy 1 1/2 hour drive from Chicago and, to our 
north, Milwaukee, Wisconsin. Both cities have experienced significant 
gang activity and that gang activity has certainly had an effect on my 
jurisdiction. Two years ago I mentioned that Hispanic or Latino gangs 
had become major players in criminal activity in Winnebago County. 
Inter-gang warfare between several of those gangs had resulted in fire-
bombings and murders. Recently the Rockford Police Department, which is 
the largest law enforcement agency in my jurisdiction, prepared a 
report detailing gang-related activity from August through December 
2006. In those 5 months we had identified 101 major felony arrests tied 
into various street gangs. Thirty-seven firearms were recovered in the 
investigations surrounding those incidents.
    In that 5 month window we have identified nearly a dozen street 
gangs, but the criminal activity is definitely dominated by the Latino 
gangs namely, the Latin Kings and the Surreno 13. The gangs do not 
appear to be highly structured or organized. They are, however, 
comprised of individuals who once having identified an enemy and 
starting a dispute will keep that dispute alive until it erupts into 
violent activity in the streets of our city. Many of the gang members 
now use their pages on MySpace to disrespect opposing gang members. It 
seems that just when a dispute might settle down it is quickly re-
energized through the trading of on-line insults and other methods of 
disrespect. Quickly the dispute once again escalates into violence on 
our streets. Investigation into these incidents is obviously hampered 
by language difficulties and a lack of cooperation among many of the 
young people of the Latino community. A distrust of the police and 
authorities in their native countries has been transferred to this 
country.
                   numbers don't tell the full story
    As with all things, pure numbers don't portray an accurate picture 
of what law enforcement is seeing in the way of several disturbing 
trends
Younger Gang Members and Victims
    Perhaps most troubling is that we are seeing even younger children 
recruited into the gangs, providing support for the activity of gangs 
or being caught up in gang violence. Couple this with parents or adult 
mentors who entrench the gangster mentality in these children and the 
availability of illegal guns and drugs and you have the making of our 
current predicament.
    In Sacramento a 15 year old boy was shot in the head as he was 
walking with students leaving his high school at 2:30 in the afternoon. 
The drive by shooting was witnessed by police officers and a vehicle 
was stopped. The first person out of the van was a six year old holding 
his birthday balloon. A mother and her three children were accompanying 
her boyfriend and his gangster friends on a drive-by shooting. It was 
the six-year-olds birthday.
    In San Mateo, California, it is not unusual to find ``third 
strikers'' who are not even 21 but facing life in prison.
    Last week there was the story from New Orleans of the mother who 
gave her son a gun after he lost a fight. His mother sent him back out 
with a gun clear and instructions to get revenge. He did as his mother 
instructed and killed the 17 year old boy who had beaten him up. At 
home ``mother'' had a picture of her son holding the murder weapon and 
a wad of money.
    In Queens, New York, an undercover drug operation in public housing 
last year led to the arrest of defendants who ranged in age from 15 to 
62. They included five alleged Bloods gang members and nine GIB 
(acronym for ``Get It In Bricks'') gang members who were charged with 
selling crack and powdered cocaine, heroin, oxycontin and marijuana to 
undercover police officers on more than 140 separate occasions
    Albuquerque tells us that a very violent gang there is currently 
moving large amounts of meth out of Mexico, hiring Mexican nationals to 
run the drugs for them, and then selling it on the street with the use 
of younger, minor gang members. The increasing use of 16- and 17-year-
olds involved in violent crimes, usually with an older gang member who 
has the juvenile ``do the dirty work'' is based on the belief that the 
juvenile will not get any time. In some cases this is true.
    Wichita, Kansas tells a similar story. In 2005, 141 juveniles 
between the ages of 13 and 17 joined gangs and 147 juveniles between 
the ages of 13 and 17 became ``associate gang members.'' The youngest 
child claiming to be a gang member was 7 years old!
    Columbia, South Carolina is also facing an increase of younger gang 
members. An 11 year old claimed to be the ``baby set'' king for Folk 
Nation; 20 kids wore home made t-shirts to schools on the same day that 
read ``Stop Snitching'' to scare a fellow class mate who was helping 
the police investigate a series of car break-ins; and school official 
estimate that a quarter of the fights that break out in Middle School 
and High School usually involve someone ``disrespecting'' someone 
else's gang by using the words ``Donut'' (insults a Folk), ``Crab'' 
(insults a Crypt) and ``Slob'' (Insults a Blood). Most schools have 
cracked down on kids wearing certain colors so the kids have begun to 
change the color of their shoe laces, wear band-aids in certain 
locations, or wear name brand name university logos that have gang 
meanings (e.g. UNC for Crypts).
    Gang ``wanna be's'' also contribute to the increased participation 
of juveniles in gang activities. In Kalispell, MT, the ``406 Crips'' 
appeared and ultimately turned out to be a half dozen local boys aged 
14-16 that formed that ``gang.'' New initiates had to get jumped by 
their crew to be initiated. In addition to the ``406 Crips'' there are 
also the ``F 13's'' and the ``440 GGG's.'' The latter is a new group to 
law enforcement but they believe that its members range from 13-16 
years of age and are a mix of males and females. They do know that 
several purported members have had previous contact with the Youth 
Court.
    Even when they don't actively join a gang, the violence associated 
with gang life impacts our children. Hmong gangsters in Sacramento 
spotted rivals in the middle of a crowded intersection at 1:00 on a 
Sunday afternoon. Two of them got out of their vehicle and fired 
fourteen shots into their enemy's car. They did this while standing 
next to a church bus filled with children on a field trip. The shooters 
walked back to their car but the light was red and they were stuck in 
Sunday afternoon traffic. Twenty five children witnessed a gang 
execution, along with countless citizens stuck at a major intersection 
of south Sacramento
Witness Intimidation
    In my previous testimony I alluded to ``Attacks on Our Criminal 
Justice System'' and the problems we were encountering in protecting 
witnesses to gang criminal enterprise. This has almost become epidemic 
in proportion.
    Let me have the words of a veteran prosecutor from Queens, New 
York, portray what they face:

        ``There are issues that are inherent to these (gang) cases and 
        experienced by gang prosecutors throughout the country. The 
        most vital issue is the issue of witness cooperation. Victims 
        of gang violence and eyewitnesses are loathe to report or 
        cooperate with the police and the Prosecutor's office. The 
        universal reason is fear. They fear retaliation. Unlike 
        perpetrators of other types of crime, gang members who are 
        arrested, leave behind armies of loyal members who are free to 
        intimidate and threaten witnesses. Many of the crimes occur 
        either at or near the victim/witness' home or school. These are 
        areas that the victim or witness must return to on a daily 
        basis. These types of crimes cannot be prosecuted without 
        civilian witnesses. In order to win the battle against these 
        violent gangs we must be armed with more resources to ensure 
        the safety of witnesses. Witness protection funds are generally 
        scarce and precious. Due to the limited nature of such funds, 
        the guidelines for moving someone out of a public housing 
        project usually require an actual threat. We cannot cultivate a 
        witness' trust and confidence in the Criminal Justice System if 
        we are saying to them ``we cannot help you until the gang has 
        made its move.'' Increased funding will allow us to take 
        preemptive steps such as relocation, assignment of detectives, 
        or even a simple cell phone to facilitate contact with the 
        police.''

    Across the county, in San Bernardino, California, two recent cases 
aptly make the New York prosecutor's point. In the first, a gang 
member, paroled from prison after serving time for a carjacking, forced 
his way into the house of a witness who had testified against him. He 
shot and killed the witness and has father and wounded the witnesses' 
infant son who was sitting on his lap. In the second case, a witness, 
who had testified against 2 gang members in a murder trial, was dragged 
from his apartment, after being beaten and when his body is found later 
it had 25 bullet holes in the head and chest. According to media 
reports the witness had known that the gang was after him, and ``lived 
a `life on the run'--even sleeping while wearing his shoes and using 
drugs to stay awake as much as possible.''
    A young girl paid with her life in Houston, Texas, for taking a 
stand against a gang. One gang member got into an altercation with 
another drug dealer from New Orleans over whose turn it was to sell 
drugs to a crackhead. After the fight was over, the defendant told the 
other drug dealer that he was going to come back and kill him, and that 
is exactly what he did. A fifteen year old girl was the only witness 
and she was brave enough to come forward and tell the police. A cousin 
to the first defendant found out she was talking to the police and he 
and the defendant threatened to kill her if she continued to cooperate 
with the law. Because she continued to cooperate, the defendant was 
arrested and when the cousin found out, he assaulted the girl. The 
cousin was charged with retaliation. Then the fifteen year old girl 
turned up missing. She was finally identified as a homicide victim just 
a few days after the retaliation warrant was executed. She was found 
with multiple gunshot wounds to the head and body in the parking lot of 
an apartment complex some distance from her home.
Use of Technology
    Gangs are also becoming more sophisticated in the use of technology 
to bolster their efforts. Social networking sites on the web are 
replacing graffiti on walls as places for gangs to boast of their 
exploits and recruit members. Perhaps most chilling are reports from 
Mexico where gangs have adopted the media techniques of Middle Eastern 
terrorists and show scenes of torture and murder on these sites to 
scare off competitors and boast of their both prowess.
    Nationally gangs such as `The Latin Kings,' `Bloods,' and `Crips,' 
have websites on the Internet. They are savvy at protecting the 
contents of the sites from nonmembers by creating viruses that attack a 
nonmember's computer of they get onto the sites. This allows Sets from 
all over the country to communicate with each other. The ``My 
Space.Com'' is highly popular with Gangs, promoting gang culture to 
other teens and posting photos of young members holding weapons and 
other criminal proceeds.
    Most drug gangs have began to use anonymous, throwaway phones and 
switching out chips in phones to avoid wire taps. Law enforcement in 
Staten Island had information that one of these gangs had gotten their 
wire tap information from watching ``The Wire.''
    The District Attorney in Albuquerque tells us that after a recent 
homicide of a 17-year-old gang member, a social website showed his 
picture with an X across it and 187. The numbers ``187'' refer to a 
part of the California penal code on murder, thus making it made clear 
this was retribution for a previous shooting.
    An interesting article last Sunday, from Newhouse News Service, 
articulated how thug life has realized the value of the internet. The 
article stated that:

        ``But in a few clicks of a computer mouse, online viewers can 
        see all sorts of videos, music and other Web postings with 
        clear depictions of young men who authorities say are known 
        members of Trenton's Sex Money Murder Bloods.

        In about 15 videos posted on YouTube.com and at least two My 
        Space.com pages, young men who identify themselves as members 
        of the gang have posted rap music videos and other footage and 
        pictures of them hanging out on Trenton streets and partying 
        together, clad in red and flashing what authorities say are 
        gang signs.

        In several of the YouTube videos, city housing projects are 
        clearly visible as young men brag using their street names. And 
        in one, a man is filmed arriving at his sentencing at the 
        Mercer County Courthouse in Trenton, bidding his friends 
        farewell as they sip from a bottle of Remy Martin cognac.''

    Providence, Rhode Island has seen this use of social web sites to 
glorify gang life. Recently there was a felony assault on a Crip by a 
Blood using a baseball bat. The victim barely survived and had no idea 
who attacked him. Members of the Providence Police Gang Squad started 
to monitor web sites. They found a site created by one of the Blood 
members. That member had included on his site a hard-core rap song that 
he sang bragging about the specific details of the crime.
    One prosecutor from the Washington suburbs painted this use if 
technology in perhaps a much more personal vein.

        ``Less than two years ago, my daughter was in 6th grade in a 
        public school. One day I was talking with my wife about gang 
        activity. My daughter chimed in with some disturbing 
        statements: that their are mostly CRIPS in her school, that 
        CRIPS aren't that bad, that lots of kids wear colors, that a 
        CRIP had been knifed (in New Jersey). She also asked whether 
        all CRIPS were bad people and similar suggestive questions. As 
        it turns out, in addition to the stories and glorification of 
        gangs being spread by other kids in school, she had also been 
        online chatting (AIM) with a proclaimed CRIP in New Jersey who 
        passed on the knifing story. My daughter was also going through 
        a phase that included rap/hip hop style music which led her to 
        innocently mimicking some gang hand signs when having her 
        picture taken. Needless to say, the AIM program was deleted and 
        other precautions have been taken.''

    To see how gangs use the web visit
        http://www.clantone.net/ ; www.chicagomobs.org ; 
        www.chicagogangs.org
New Markets & Threats
    The ``business plan'' of some of the gangs could be used as a text 
book study in any MBA program. A rural county in Wisconsin is home to a 
rather significant population of Native American members of the Ho 
Chunk Nation. Over the past few of years a group of members of Gangster 
Disciple gangs in Chicago have traveled to this rural area for the 
purpose of expanding their crack cocaine distribution network. Crack 
cocaine has obviously been a problem for some time but in this case the 
method of distribution was new. Gang members began going there 2 years 
ago and setting up drug houses where cocaine was given away or sold at 
fire sale prices for the purpose of growing the market base and 
creating new addicts. The dealers would rotate; some would travel for 
re-supply while others sold. As the market expanded these dealers 
targeted the Native American population and began appearing en masse on 
``Per capita payment day,'' a quarterly event where members of the Ho 
Chunk Nation received their portion of the tribes gaming proceeds. 
Reminiscent of the traders on the frontier the gang members would sell 
crack cocaine to all of the newly grown addicts at full price.
    The adaptability of gangs is something we all need to take into 
consideration when we explore the means and methods to counter or end 
their influence. Nothing is more illustrative then their increasing 
forays into the sale and distribution of meth. With the passage of the 
Combat Meth Act the Congress gave the states a powerful tool by which 
they apparently have been able to drastically reduce the number of meth 
labs. While the Combat Meth Act helped the environment and has provided 
added protections for our children who were exposed to the harmful by-
products of meth production there is still a demand for meth. Gangs 
have been able to swiftly and effectively exploit that need for meth 
and fill that void.
    Gangs are also starting to go into mortgage fraud; an easy way to 
launder their money and look legitimate in the process. Cook County 
(Chicago) just charged a Gangster Disciple with mortgage fraud. He 
would buy a property at foreclosure, get a phony appraisal, get an 
unsuspecting buyer, phony up their income, then make a profit at 
closing. The Black Disciples have also engaged in mortgage fraud and 
even also bought a radio station and used it to warn their dealers on 
the street when the police would be coming.
    Gangs are expanding beyond their ``historical'' turf in new and 
alarming ways. Houston has experienced what may be a new trend in 
violent gang crime, where gangs have been sending for a member from 
another state or country to do a hit. They then send the hit man back 
home and there is little, if any trail, of the hit man.
    And perhaps most disturbing is the recent report from Los Angeles 
where ethic ``cleansing'' has become a goal of gang life. This is a 
concept alien to the American culture but it appears that Hispanic 
gangs have set out to kill members of the African-American community 
because they live in a largely Hispanic community.
                         popular misconceptions
    First I want to disabuse the members of this Subcommittee, and any 
who read my testimony, from thinking that I, or any other prosecutor, 
is only concerned with trying gang members. To counter this gang 
problem we need effective community partnerships to deter our children 
from becoming enamored with the ``thug life.'' While we need strong and 
effective criminal prosecutions we also need diversion programs to lure 
back those that have crossed the line. Lastly we need to develop 
meaningful re-entry programs to give those who have known little else 
but gang life a chance to succeed after they serve time.
    No one facet of this will accomplish what we need to do. If we 
don't deter our youth from the gangs then we will have a never ending 
prosecution and imprisonment process we have to remove those who serve 
as evil influences--either by incarceration or by changing their desire 
to be a gang banger by giving them a chance to a meaningful existence.
    Secondly I want to emphasize that gang members are not dumb--their 
use of technology, and what can almost be described as ``business 
plans'' and their adaptability aptly illustrate their ``smarts.'' 
Unhampered by the need for legislative action or procurement rules they 
can be much more responsive to changing circumstances than law 
enforcement--unless we work smarter.
                          effective strategies
Community Teamwork
    Many of our communities have developed what appear to be effective 
strategies to counter the gangs, and gang ``wanna be's'' that threaten 
their safety and security.
    The combined efforts of state, local and federal law enforcement 
are key elements but they cannot succeed without enlisting the will of 
the community. To this end we need to make sure that we use our all too 
scarce resources effectively and efficiently. As I stated when I 
testified before you in 2003

        ``Local prosecutors are successful in prosecuting crime because 
        they have the expertise, experience and connection to the 
        community that is needed to combat the types of crimes that 
        most affect the American people, and, under consideration here, 
        in combating gang violence.''

    I think the key words here are ``connection to the community.'' We 
have the ability to be able to mobilize all the resources of our towns 
and counties to end gang violence. This is the ultimate in the idea of 
``community prosecution''--that is getting out into our communities to 
work with our citizens and to mobilize their efforts and talents.
    As part of our responsibilities we need to lead efforts for gang 
deterrence programs and be instrumental in the re-entry effort. In the 
summer of 2005 the Board of Directors of NDAA adopted a formal 
resolution that states

        ``(T)he National District Attorneys Association believes that 
        prisoner reentry has become a crucial criminal justice issue. 
        While the NDAA recognizes that the role of prosecutors in the 
        arena of prisoner re-entry will vary according to individual 
        state law, America's prosecutors should, where practicable, be 
        participants in addressing this issue in an effort to reduce 
        recidivism and ensure the safety of victims and the 
        community.''

    A copy of that complete policy can be found the NDAA our website at 
http://www.ndaa.org/pdf/policy--position--prisoner--reentry--july--17--
05.pdf
    In this team effort we do need assistance from Federal law 
enforcement. The ATF, ICE , the Secret Service and all the other 
federal agencies have played key roles in those communities that have 
shown the most success in combating gangs. These agencies have the 
resources and technical capabilities many local agencies do not have or 
need only on rare occasions. As the gangs become more dependant on 
technology the federal capability to conduct electronic surveillance, 
for instance, is crucial.
    I repeat what I said the last time I was here because it is crucial 
to what we need to do.

        ``It is the ability to bring the respective talents and 
        resources of the local and federal authorities together at the 
        appropriate times that result in the successes we are all 
        looking for in the fight against gangs. I would urge that this 
        become the hallmark of your efforts in ending gang violence.''

    As a cautionary note, however, I would like to emphasize that the 
federal tendency to make ``one size fit all'' works counter to the 
strength of utilizing community efforts. Our communities differ, our 
gang problems differ and accordingly our responses must differ. What 
Congress can bring to this is the flexibility and adaptability to meet 
the will of our communities.
Witness intimidation
    Prosecutors across the county believe that the issue of witness 
intimidation is the single biggest hurdle facing any successful gang 
prosecution. As you've seen from the trends we're facing, the problem 
of witness intimidation and retaliation is increasing drastically. 
Various jurisdictions have tried to establish some type of witness 
protection program but lack of resources and fearful witnesses are 
difficult obstacles to overcome.
    While NDAA had not taken a formal position on H.R.933, introduced 
by Mr. Cummings, we have supported this effort in the past and I would 
see no reason why we won't be supportive in this Congress. It would 
establish within the United States Marshals Service a short term State 
witness protection program to provide assistance to State and local 
district attorneys to protect their witnesses in cases involving 
homicide, serious violent felonies, and serious drug offenses, and to 
provide Federal grants for such protection.
    In addition I would urge that you consider providing funding to 
study what works for witness protection programs at the state and local 
level, provide ``seed'' money to begin programs and then help the 
states find sources of revenues to continue to fund these programs.
Funding for Local Prosecution Efforts
    We need to be proactive in our communities to identify gang threats 
early and respond decisively. Two years ago I testified that our 
resources were stretched thin--since then the resources of all local 
prosecutors in the United States have been cut even more.
    DeKalb County, Georgia is a prime example of the problem that faces 
local law enforcement. The County has a population of 700,000 with over 
2500 documented gang members representing over 140 gangs. The local 
police department has only 1000 officers; meaning they have anywhere 
from 2.5 to 5 gang members for every police officer on the street. Only 
4 officers are designated as Gang Detectives and 1 ICE agent is 
assigned to this area. There are approximately 107,000 students in 
local schools and only 2 School Resource Officers are dedicated to gang 
intelligence. The County does not have the ``luxury'' of dedicating 
even one prosecutor full time for gangs; they hope one will be funded 
out of their next budget
    Clearly, additional resources in this area are a critical need and 
if used wisely they will make a positive difference.
    On behalf of America's prosecutors I, and the National District 
Attorneys Association, urge you to take steps to provide federal 
assistance to state efforts to fight our gang problems and to provide 
us with the resources to effectively protect those brave enough to 
confront the gang bangers. We look forward to continuing to work with 
you on addressing this growing problem.

TESTIMONY OF TENY GROSS. EXECUTIVE DIRECTOR, INSTITUTE FOR THE 
       STUDY AND PRACTICE OF NONVIOLENCE, PROVIDENCE, RI

    Mr. Gross. My name is Teny Gross. It is a true honor to be 
here.
    I wish my parents were alive. My dad, after World War II--
my first bar of chocolate was from an American G.I., and my 
older sister used to take me to the American Embassy for the 
library every Tuesday to borrow books, and I ended up marrying 
an American girl and ended up working in Boston for 10 years 
and now 5 years in Providence, Rhode Island.
    What happens in this civilization matters a lot. This is 
the longest running democracy on the planet, in history, in 
fact. The Athenian democracy lived a lot shorter and it does 
concern a lot of us; the levels of violence are absolutely 
astounding. It is actually safer to be an Israeli soldier in 
uniform in Lebanon than it is to be an African-American man in 
Washington, D.C., between the age of 17 to 40. That is a 
staggering, staggering statistic.
    We have lost in the last 25 years about 580,000 people to 
homicide; 10 Vietnam Wars. Those are things that we live in. I 
dream of speaking to our elites at 3 in the morning at the 
emergency room when we are picking up the pieces.
    Before I move on, I just want to introduce three of our 
street workers that we brought over from Providence who work at 
the Institute. Senior street worker A.J. Benson, street worker 
David Cartagena and street worker Sal Monteiro, who have seen 
the streets, have been involved with gangs, have been involved 
with violence and are now legends and constantly called upon by 
educators, by social workers, by doctors, by police officers, 
to mediate conflicts in the city.
    I have studied in some very, very fine schools in this 
country and I love philosophy, but what I will speak about 
today is from pure experience of 15 years in the trenches.
    In two cities now, particularly in Boston and in 
Providence, where I have worked, I have seen that a smart 
group, a partnership by a very motivated and concentrated group 
of people, like prevention, like a few academics, gang unit 
officers, clergy and youth workers can make a huge amount of 
difference. When you bring these five groups together, you 
basically have the intelligence on the whole city, who is 
committing the violence.
    One of the efforts that David led in Boston was, initially 
the problem was 60,000 children. We narrowed it down to 1,200 
gang members, 300 are hard core. You see how it becomes a more 
rationale problem to tackle?
    And then, really, we are the linebacker. We are really the 
ones who are everyday trying to hit those conflicts, work on 
them, mediate them. Violence is very, very rarely random. It is 
between known people.
    So Philadelphia recently, by November 15, I think I read in 
the Enquirer, picked up 5,000 guns and still homicide peaked 
over 400. We cannot just go after the guns. Someone is using it 
against someone they know.
    What we do in Providence now, we have perfected the Boston 
model. It is a more sophisticated one. Any time there is a 
conflict in school, little things, we are already jumping on 
it. We have meetings like police com stat, where we look at the 
current conflicts, we assign them to street workers. Street 
workers know different gangs, they come from different gangs, 
they come from different sides of town.
    So we always, as opposed to the social worker model, where 
you know a client and you try to serve them, we actually know 
your enemy. The fact that Teny now wants to go to college after 
he has inflicted pain on his city meant nothing if my enemy 
doesn't let me do that. You need someone on the other side, and 
that is what we do.
    When I went out, recently, about a year ago, a major 
shooter of an Asian gang said to me, away from his crew, in the 
park, he said, ``Teny, I am exhausted. I wish I could live in 
the suburbs.''
    Well, David has worked with him in that year, and he has 
been taken away to Job Corps in another State, removed from 
that environment, which is what he wanted. You keep him in that 
environment, he is going to continue to be a shooter. He has 
too many conflicts.
    So there is no cookie cutter solution, but we do know the 
solutions now. It is going to take having practitioners. One of 
the things that I am dazzled with, when I come at 3 in the 
morning, back from an emergency room and I have to wind down, I 
look on the Internet. We spend a lot of money on research, we 
spend a lot of money on pilot programs. We have no stamina. I 
wish we picked up a little bit from the Japanese and looked a 
little bit at longer-term solutions.
    It is almost like sending the Army to Iraq just for having 
researchers at the Pentagon. You need people in the trenches. 
And most of us work in programs. I have the greatest support of 
the mayor. The chief is on our board. The U.S. Attorney has 
helped fund us. And it is still a massive struggle to fund 13 
street workers.
    So there are good programs, and I am here on the panel with 
people I admire and there are everywhere around the country 
great people, and we are all burning out. There is nothing to 
sustain us. And so using Congress actually--I was listening to 
talks related to the funding community and foundations, none of 
them really fund practitioners. They have moved now to change 
policy. They have moved now to pilot programs.
    We need to change the model of funding. There are people 
who need to be in this field and you cannot keep them. It is an 
anomaly to have someone like me, with a Master's from Harvard, 
staying in this field at 41 with no retirement. It is an 
anomaly. It shouldn't be.
    We need to rebuild--if I would suggest research as well, to 
have a practical research that, what will it take to build an 
infrastructure of youth workers around the country. What are 
the expenses? We will have a library on the second floor. There 
will be a jazz orchestra where the kids learn. There will be a 
theatre program.
    We need to bring civilization back to the neighborhoods 
where violence happens. I was stunned in Providence that only 
one full-time person is in a rec center and the only training 
they had in the last 20 years is CPR. And those are the people 
we want to turn the attitudes of our kids? We are absolutely 
shooting ourselves in the leg.
    I have to stop here. Thank you.
    [The reference material of Mr. Gross follows:]
                    Reference Material of Teny Gross
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Scott. I want to thank all of our witnesses for their 
tremendous testimony.
    I recognize myself for the first round of questioning.
    Mr. Elliott, you mentioned the need for research. Where is 
the research done? Mr. Gross mentioned where some of it could 
be done. Would it be colleges, the National Institutes for 
Science? Where should we be looking for research?
    Mr. Elliott. In the area of violence reduction, of course, 
I think that research ought to be in the Justice Department and 
the Department of Education is doing some of that. But I think 
the primary location would be in the Department of Justice. 
And, you know, a lot of the work currently going on is in the 
Department of Justice.
    The National Science Foundation, I think, could also be 
funding general youth development kind of programs, like Dr. 
Butts talked about, but when we are talking about violence and 
crime reduction, I think that research ought to be in the 
Justice Department.
    Mr. Scott. And you mentioned several things that didn't 
work. Your testimony specifically mentions waivers to adult 
court. What is the research on that?
    Mr. Elliott. The research on that suggest that the waivers 
to the adult court increase the risk of victimization for those 
adolescents who have been put into the adult criminal system as 
compared to the juvenile system.
    There is a greater risk of reoffending when they get out 
and there is also some evidence for discriminatory processing 
with respect to which kids get waived and transferred and which 
kids don't, when that is left up to the prosecuting attorneys.
    Mr. Scott. Is that statement based on control groups? 
Because you would expect the more serious offenders to be 
waived to adult court, so you might be talking about apples and 
oranges. Or are you talking about the modest-risk people, if 
they are treated in adult court, they are more likely to 
offend?
    Mr. Elliott. The studies have, in fact, controls for that 
issue. They are not randomized control trials, which would be 
the best evidence, but they are quasi-experimental trials in 
which they have matched the control group with the experimental 
group with respect to the seriousness of the offense.
    Mr. Scott. Thank you.
    Dr. Butts, you indicated that you need to--let me ask it 
another way. In terms of what you do to the juveniles that are 
here today, whatever you do to them, what does that do for the 
next cohort of juveniles in terms of what they may be doing or 
what trajectory they are on.
    Mr. Butts. I think you heard some of the other speakers 
refer to the changing of culture at the neighborhood level, 
certainly at the family level. Everyone you are exposed to as 
you are coming up as a young person influences you, and to the 
extent we can surround young people with positive pro-social 
adults who see a role for families who have jobs, who have 
faith in their own futures, youth will pick up on that attitude 
and start to adopt it themselves.
    So stopping, you know, you have referred to the phrase 
before as closing down the pipeline, reducing the number of 
people that a young person is exposed to who advocate and enjoy 
a criminal life style is critical for making those cultural 
changes.
    Mr. Scott. And if you don't change the trajectory, does it 
matter for the next cohort what you have done to the last 
cohort?
    Mr. Butts. The trajectory of an individual?
    Mr. Scott. If young people are headed toward prison rather 
than college, if you don't do anything about that trajectory, 
what can we reasonably expect the next cohort to end up?
    Mr. Butts. Well, some people refer to the ``little brother 
effect'' to explain the declining crime during the late 1990's. 
And that, simply put, is when you are 12 years old and you see 
your 18-year-old brother shot and killed, go off to prison, and 
a lot of your brother's friends are doing the same thing, it 
changes you as a 12-year-old. And some people theorize that and 
the many other factors, including the decline in crack use, 
contributed to the overall decline.
    So the whole pipeline effect, you know, stopping things 
early and reaching kids when they are young is of the utmost 
importance.
    Mr. Scott. And what kinds of things actually make a 
difference in that trajectory?
    Mr. Butts. What I was suggesting in my statement was that 
we pay attention to common sense. None of us here are 
threatening each other with bodily harm right now. And that is 
not because we were surrounded by a team of psychiatrists when 
we were 13 years old. It is because we learned to play by the 
rules, we learned to enjoy the benefits of living in society 
and to respect one another.
    Those are pretty simple lessons and you don't need skilled 
therapeutic professionals to do that. We rely upon skilled 
therapeutic professionals because that is our funding mechanism 
and that is how we can create systems of intervention.
    It is much harder to create neighborhood-based, volunteer-
based pro-social activities and groups for young people. But if 
we were going to focus on common sense and create service 
networks that make sense, I think that is what we would do. It 
takes a long time and you need good community-based workers, 
like some of the young men sitting behind us.
    Mr. Scott. Thank you.
    Mr. Sherman, you indicated your entire research identified 
a group at high risk of offending. With those in supervision, 
are there things we could do while they are on supervision to 
reduce the risk that they will offend?
    Mr. Sherman. Mr. Chairman, there is a wide range of things 
we can do. What we haven't done is to test the matching of 
certain response to people with certain kinds of diagnoses.
    We do have some ideas, like across the board provide 
frequent checks to make sure that these people at very high 
risk, and I should say with the new models we can identify that 
people who are 42 times more likely to be accurately forecast 
to commit a murder or attempt a murder than the average person 
on probation.
    So by focusing on a very tiny portion of that group, we 
could then say even within that portion does everybody need to 
be monitored, whether they are carrying guns, and that is 
currently one of the strategies that is being used but hasn't 
been evaluated carefully. For those who have post-traumatic 
stress disorder because they have seen their brother shot or 
they have seen their parents fighting in very violent ways.
    Does treatment of post-traumatic stress disorder reduce 
their likelihood of killing somebody? For people who are 
chronically depressed, does treatment for depression reduce 
their post-traumatic stress disorder?
    Again, these are not things that you I think should be 
doing across the board in either the juvenile or the adult 
system, but where for the tiny fraction who based on their 
prior record or at very high risk, we could be said to be under 
serving them in terms of their mental health needs.
    And not every city has a gang problem. Philadelphia really 
doesn't have the evidence of the kind of thing that we are 
hearing about in Providence or Boston. So, indeed, we may be 
able to help these folks get their lives together, get into the 
high school completion. Some are in community college right 
now. Give them some parent training. You know, there are 
fathers out there, as well as mothers, who are raising kids, 
and we have got some of them in this program.
    And if in every way, the probation officer, possibly even 
on a one-on-one basis, can help to turn their lives around, 
that could save an enormous amount of money if not in terms of 
gunshot wounds at over $100,000 per injury, then in terms of 
$35,000 a year in prison for possibly 40 years.
    We don't know exactly what to do, but I think the progress 
we have made now that would support creation of Federal grant 
program is that we have a much better idea where to focus these 
efforts.
    Mr. Forbes. Thank you, Mr. Chairman.
    First of all, again, I want to thank all of you for being 
here and thank you for what you are doing, and with the 
possible caveat that Mr. Elliott may tell us that one of your 
programs is harmful, we just appreciate all of them that you 
are doing.
    I want to just say a couple of things at the beginning, 
because we hear a lot of buzz phrases and buzz words, and let 
us just make clear for the record that nobody here thinks you 
can arrest or incarcerate your way out of the gang problem. I 
have heard that language. Nobody seriously believes that. 
Nobody thinks that abusive or illegal law enforcement 
activities work well. None of us think that.
    Nobody thinks we should not have a comprehensive program to 
address the gang problem, which includes law enforcement tools 
and prevention programs. Nobody thinks the Federal Government 
can pass a single act that will deal with all the components of 
gang crime, nor should we. That is not what we are about.
    Our goal is trying to strike a balance between what the 
Federal Government can and should do, what the State government 
can and should do, what communities can and should do and what 
the private sector can and should do.
    Just to give you a couple of examples, one of the most 
popular gang leaders that I read about in the 1970's was a guy 
named Nicky Cruz, who was a gang leader at 19. Teen Challenge 
converted him to a faith program. Nicky has spoken now to 40 
million people about self-improvement around the world. I mean, 
that was a winner. The Federal Government, Mr. Chairman would 
say, we shouldn't get involved in helping those kinds of 
programs.
    Just this past week, I was at a community center that 
combined a library-rec center to help prevent gangs and 
juvenile crime. Wonderful program.
    So we think those programs are great. What we are trying to 
do is say what should the Federal Government be doing and how 
should we be doing it.
    Now, Mr. Elliott, I looked at your testimony and one of the 
things that I looked at was the bio that you gave to us, and 
one of the things the Chairman and the Chairman of the 
Committee has encouraged us to do is oversight. And as I was 
looking at the studies and the grants that you just listed down 
here, and I am sure there are a lot more, that you were the 
principal investigator of, they totaled over $38,526,000 in 
grant programs just to programs that you listed that you were 
principal investigator. That is a lot of money to research and 
evaluate programs.
    And after doing that, the conclusion that I read in your 
written testimony, I just want to read it back to you, that you 
identified over 600 programs that claim to prevent or deter 
violence, drug use or delinquent behavior and less than 20 have 
any rigorous evaluation.
    Was that your statement?
    Mr. Elliott. Twenty percent.
    Mr. Forbes. I am sorry, 20 percent.
    The other testimony that you had in your written statement 
was the fact remains that most of the resources currently 
committed to the prevention and control of youth violence, drug 
use and delinquency at both national and local levels has been 
invested in unproven programs based on questionable assumptions 
and delivered with little consistency or quality control.
    Fair statement?
    Mr. Elliott. Correct.
    Mr. Forbes. And then the other thing that you indicated was 
that this was a complex behavior problem, when we are looking 
at gangs, that includes these things: family, neighborhood, 
peer group and the media is what you listed.
    Were they accurate components, according to your testimony?
    Mr. Elliott. yes.
    Mr. Forbes. And then you also said any positive changes in 
the individual's behavior achieved in the treatment setting are 
quickly lost when the youth returns home to his/her family, 
neighborhood and old friends.
    So basically we are looking at a situation where all of 
those components are influential in what happens with any 
particular program that we have, how strong the family unit is, 
what the neighborhood looks like, what the peer groups are, how 
the media responds.
    Fair statement?
    Mr. Elliott. Each of those contexts does contribute to the 
incident or the likelihood of violence.
    Mr. Forbes. But we have to look at each of those components 
when we are trying to measure gang activity, correct?
    Mr. Elliott. Correct.
    Mr. Forbes. The other thing is, we have had testimony 
before our Committee, and forgive me for being quick, I only 
have 5 minutes. We have had testimony before our Committee that 
the number-one gang problem in the United States today, 
according to the Attorney General, was MS-13. That is his 
testimony, whether we agree with it or disagree with it.
    And then we have had further testimony that between 60 and 
85 percent of the members of many of the MS-13 groups are here 
illegally.
    Can you tell me, from that $38 million of evaluation on the 
programs that you have had in your examination of these 
prevention programs, what prevention programs have you found 
that effectively works to stop gang activity from those 
individuals who are here illegally on the worst gang that we 
have in the country today?
    Mr. Elliott. I am not sure I can address that specific gang 
and those specific situations, but we have two programs, for 
example, that we know are very effective in working with deep-
end offenders, and that is multisystemic family therapy and----
    Mr. Forbes. Are they for illegal----
    Mr. Elliott. They would work for illegals.
    There are a number of programs which have been validated to 
work with various ethnic populations. Some programs, 
unfortunately, have been validated only with respect to the 
majority population, so you have to be careful when you look at 
the program to see, but those are two programs, for example, 
that have demonstrated the effectiveness of working with 
different racial and ethnic groups and have been effective in 
working with kids like the kids that are in gangs in general. I 
can't speak specifically to the MS-13 group.
    Mr. Forbes. My time is up, but that is one of the dilemmas 
with have with having so many people on the panel, we can't get 
to everybody to ask all the questions we want to ask. Hopefully 
we will have several rounds to do so.
    The only thing I would follow up with you, if you can 
submit to us at some point in time, in writing, from your 
evaluations, specifically the programs that you have found to 
be effective in working with the illegal group of people that 
are here, on groups like MS-13 and some of the other groups 
that seem to be so prevalent.
    Mr. Scott. Thank you.
    We have been joined by the gentlelady from California, Ms. 
Waters.
    Do you have questions?
    Ms. Waters. Thank you very much, Mr. Chairman. I apologize. 
I am in Financial Services and I was not able to be here 
earlier.
    I must also admit I have not had an opportunity to read all 
of the testimony that has been presented here this morning, but 
I wanted to come over for several reasons.
    One is, as you know, I urged and encouraged that we focus 
some attention on the gang problem in America and shared with 
you the seriousness of the gang problem in the Greater Los 
Angeles area. I have not read all of the testimony. I do know 
about one of the programs that simply talks about law 
enforcement, community leaders, et cetera, coming together and 
addressing gang members and somehow either convincing them or 
threatening them, maybe both, and it having some great impact.
    I have a lot of experience working with gangs. I started 
many years ago in some of the largest public housing projects 
in the Greater Los Angeles area: the Nickerson Gardens Housing 
Projects and the Imperial Courts, Jordan Downs, the Pueblos, 
Gonzales Housing Projects. These are areas where we had Crips 
and Bloods, Grape Street, all of the notorious gangs of the 
South Central Los Angeles area.
    And I think I have learned a few things. I have learned 
that you cannot simply deal with the problems of gangs with 
police enforcement and just simply getting tough and locking up 
people. It does not work. It creates a lot more resentment 
because oftentimes the police don't know a gang member from Ms. 
Johnson's son, who is not a gang member, who is in school every 
day, and happens to be at the laundromat and ill-informed and 
ill-trained police officers just see all Black youth in the 
same light and they not only apprehend and arrest but create a 
lot of confrontation and friction and other kinds of things.
    Now our communities have marched, they have prayed, they 
have got ministries involved, but I have found, through a 
program that I started with discretionary money that came from 
the Federal Government to the State when I was in the State 
legislature, I created a program for public housing projects.
    It was a program that I simply sat at my kitchen table and 
wrote. And we took this discretionary money, went into the 
public housing projects and we put flyers out, we walked the 
neighborhoods, and we convinced the public housing authority to 
give us space where we opened offices and we used their 
gymnasiums for the programs that I ran for almost 10 years.
    We took this money, we took this free space, we walked the 
neighborhood and we convinced city government, who was running 
the Private Industry Councils at that time, if any of you 
remember, the so-called job training programs, the Private 
Industry Councils, that did not touch inside these public 
housing projects. Many cities do not afford the services to 
some of the poorest areas and certainly to public housing 
projects that they should be affording. They act as if they are 
not in their city.
    And so the job training programs never reached, and so I 
started these programs because young people, mostly young Black 
males at that time, were just hanging every day in public 
housing projects. They didn't really live there--they did live 
there. They were not on the rolls because of the policies of 
Federal Government. They lived with girlfriends and 
grandmothers and wherever they could because they didn't have 
jobs and they didn't have homes.
    And so the Government, we all pretend that they don't live 
there. We recruited them in the gymnasiums, and I had a program 
where, the way I structured it, we met about 4 days, and in 
those 4 days I insisted on using some of the money to pay a 
stipend for those who attended the programs. I had food. I had 
food when they came in in the morning and I had something for 
lunch. And we had very simple programs where we started out by 
talking about do you really want to work? What do you want to 
do with your life?
    We found out a lot about folks. We found out that, 
surprisingly, most of the people in the program those days had 
graduated from high school in that area. We also found out that 
most of them were involved in drugs in some way.
    I started right at the height of the crack cocaine 
explosion in South Central Los Angeles, where everybody was 
trying to make a buck with small amounts of crack cocaine, et 
cetera. I discovered that the 1st day that I had this program, 
we had standing room only. It dispelled the notion that these 
poor people, these gang members, did not want jobs. They did 
not want to work. We also did all of the regular stuff of 4 
days of learning how to fill out a job application, role 
playing.
    But the most important thing was the talking and getting to 
know people and people getting to trust you and beginning to 
share with you. People would come up to me afterwards and say, 
``Ms. Waters, I want to but I can't read.'' I mean, that is not 
something that they were able to really talk about. Some had 
dropped out of school or had been just pushed on through 
despite the fact they couldn't read. And for all intents and 
purposes, their lives were kind of over.
    Others were the children of crack-addicted mothers and 
there was no safety net. Others had fathers and mothers who 
were in prison. Others had simply no connections and they were 
living in vacant buildings at times with gangs. So out of all 
of that, what we did was we said to the City of Los Angeles and 
the Private Industry Council, you have got to get your people 
here. We have got to have the job developers. They have got to 
get not only into real training programs once they come out of 
what I am doing, but we have got to have job developers who 
really develop jobs.
    And everybody who came into the public housing projects 
after that, whether it was the Housing Authority itself 
attempting to do rehabilitation or the telephone companies 
laying cable, we made them employ the people who lived in those 
public housing projects or they couldn't work there. They just 
couldn't do it. We were sick and tired of people coming in, 
earning the money, taking it and going on across town somewhere 
into another county while people standing there unemployed had 
nothing to do.
    Jobs will do a hell of a lot to reduce crime and violence. 
Out of those years, we have homeowners, we have people that got 
connected because we created the Maxine Waters Employment 
Preparation Center under the unified school district to make 
sure there were alternatives.
    And so I just came here to say this, and I know you want me 
to wrap up, Mr. Chairman. I have a real appreciation for 
academicians and the research you may have done and what you 
understand about gangs. But I want you to know, until you have 
been on the ground with Crips and Bloods, Rolling 40's, 50's 
and 60's, and gotten to know these kids and these young people 
and the anger and the disappointment and the lack of trust that 
they have basically in our society and in adults who have let 
them down time and time again, the only power they have is the 
power of the gun and the power to threaten and the power to 
control some territory that you may not think is worth 
anything, but to them that is their power, to say that you 
can't come here, you can't do this.
    This is a complicated problem that requires money, it 
requires sustained training and development. There should be no 
poor communities in housing projects that do not have social 
services, do not have job training programs. There should be no 
programs that do not have stipends. Don't ask poor people and 
gang members to sit in training programs every day hungry. I 
made sure they had money for food, to get their clothes clean, 
to get grandmamma to watch the baby, whatever, so that they 
could listen and try to be a part of it.
    I have found most people, whether they are gang members or 
just dropouts or poor people, really aspire to everything else 
all Americans aspire to. Everything that we see on that 
television. They want homes, they want cars, they want to be 
able to go to concerts. They want that. So I don't talk to 
people about just being good, just saying no. I try to empower 
people with real assets, with real stuff to be able to live 
with.
    If you do that, and people see that they can get some money 
and they can pay the rent, they can buy some houses, we can go 
a long way toward breaking up gangs, breaking up concentrations 
of gangs in communities.
    I just had to have my say and I thank you for the time, Mr. 
Chairman. And I will spend a little time before I go back to 
financial services, because I want a rebuttal.
    Mr. Scott. Thank you, Ms. Waters.
    We will ask the witnesses to respond as part of your other 
responses, but thank you. You went a little over.
    The gentleman from Ohio?
    Mr. Chabot. Thank the gentleman, and I want to thank him 
for holding this hearing. I think it is a very important and 
timely hearing.
    Before I get into my questions, I wanted to mention our 
colleague, Mr. Coble, who was here earlier, had to leave 
because he went to Georgia for the funeral service of one of 
our colleagues, Charlie Norwood, who passed away, and that may 
be why there aren't more Members here today.
    He also wanted to let you know, Mr. Kennedy, that his 
assistant chief of police back in High Point, North Carolina, 
sent his thank you for the work that you have been doing in 
their community. And I also want to thank you for agreeing to 
work with the city of Cincinnati in its efforts to decrease 
youth violence. I was honored to serve on the Cincinnati City 
Council for 5 years, this is quite a few years ago, and live in 
the city and as a citizen have a lot of concerns about the 
level of violence in our community.
    Last year, we, for example, suffered the highest homicide 
rate that we have had in our city's history, which is obviously 
most unfortunate, and many of those were related to gangs and 
to violence relative to drug transactions and most of them were 
in the city. So we appreciate your input and hope that you are 
successful.
    We had a chance to talk shortly before this hearing and I 
was encouraged to hear how certain you were that you will be 
successful here, assuming that you get the cooperation of the 
community and their involvement.
    And I would start out by mentioning, you had an article 
that appeared by the National Institute of Justice, titled 
``Pulling Levers,'' and you advocated the strategy. Could you 
describe what that strategy is, what it encompasses, and how 
that would apply in Cincinnati?
    Mr. Kennedy. Thanks. Sure. I had to make it really 
complicated to get it into NIJ. It is actually pretty simple.
    And to not rebut but endorse what Congresswoman Waters 
said, you are exactly right, and this is what Teny has been 
saying, it is what Mai has been saying. It is what the chief 
and the D.A., we are all saying the same thing here.
    I learned what I know about this from Teny, from gang 
officers, from community people. The literature helps, but that 
is where I have gotten everything most important in my career.
    The version that NIJ wouldn't publish is the version that, 
my mother goes to cocktail parties and says that I learned all 
of this from here, and she is fundamentally correct. We 
bureaucratize this, we abstract it, we put it in fancy 
language, but any good parent sticks with their kid, 
establishes rules, helps them learn, punishes them 
appropriately when they need punishment, but doesn't go away at 
that point. They don't turn them over to somebody else.
    If we did families the way we do crime, we would have one 
parent responsible for love and support, one for rules and 
discipline. We would have to find a third parent for spiritual 
guidance. And the parents would be forbidden by statute from 
speaking to each other. This is ridiculous.
    So all ``pulling levers'' is, and I don't even like that 
term anymore, but all it is is a way of engaging consistently 
with the groups of the kind of really extreme offenders that 
Larry has been describing, and he is absolutely right about 
what is going on out there, and saying to them consistently 
over time there are things that we won't put up with. Here is 
exactly what is going to happen if you do these things. People 
you respect want you to stop this and want to help you if you 
will let them help you.
    And the piece that we don't think about very much, the, 
say, you know, moral voice, this is wrong and you know it is 
wrong, and it turns out that even the most hardened offenders, 
or most of them, really care a lot when their grandmother looks 
at them and says, ``You are really disappointing me.''
    I am a deterrence theorist, and deterrence theory tells me 
that if I am more afraid of my grandmother than I am of the 
police, let us organize the grandmothers. And that is in fact 
what is going on out there. It is really very simple.
    Mr. Chabot. Thank you very much.
    Mr. Sherman and Mr. Logli, if I could ask you the question, 
for those that have shown by their behavior to be particularly 
violent and some that are predators on the community, could you 
talk about the important aspects of law enforcement in dealing 
with those individuals and what we ought to do as a society and 
as a Government?
    Mr. Sherman. I would start with making sure that they are 
not in possession of or carrying guns. That nexus is very 
clear. There is a lot of controversy about how to deal with 
that problem at large in the community. I believe once people 
have been convicted and put under conditions of community 
supervision, the opportunity exists for a judge to reinforce 
the existing law that says as convicted felons they--or even as 
adjudicated delinquents--that they would not have any right to 
legal possession of guns.
    The problem is doing that in a way that is respectful, that 
doesn't provoke the resentment and further anger that 
Congresswoman Waters has quite rightly drawn our attention to, 
and one of the things we are working on right now in the 
probation-police partnership in Philadelphia is trying to make 
the home visits, both scheduled and unscheduled, as dignified 
and supportive of an experience for the offender on community 
supervision, as possible.
    So that even though there are two plainclothes officers in 
an unmarked car who drive the probation officer to the house, 
what the probation officer does primarily while looking around 
the house, in addition to other things, is to talk with the 
family, to talk with grandmother or to talk with whoever is 
there, about the hopes and aspirations, the education plans, 
the occupational goals that the probationer has, so that the 
attempt to monitor and regulate the critical issue of gun 
possession is tied to an expression of concern for and respect 
for the young offender and his home and the people in the 
home--and by young, again, I mean under age 25--so that we 
don't make the anger at police from a disrespecting kind of 
contact in order to preserve their non-gun carrying part of a 
larger set of causes of what makes them violent.
    I think we can do that, and I think that if we are able to 
pursue not only the gun issue but also issues of compliance 
with programs that--because Philadelphia probation officers 
have 180 cases per officer, so if an offender doesn't show up 
for drug treatment or doesn't go to alcohol treatment or even 
therapy programs or education programs as required or as agreed 
to, nothing happens. There is no consequence.
    So to lower that caseload, especially with these high-risk 
people, and the astonishing fact that in Philadelphia we have 
only one-fourth as many probation officers per murder as in the 
rest of Pennsylvania. We would need four times as many 
probation officers just to come up to that ratio in the rest of 
the State. Which is why, you know, in the short run, something 
like a Federal grants program to support this sort of high-risk 
community supervision would be extremely helpful and have, I 
think, an immediate possibility of reducing the homicide rate 
in the nation.
    Mr. Logli. Thank you.
    If I understand the question, Congressman, it is what do we 
do with those people that have already started to offend. And, 
of course, as a local district attorney, many times our first 
contact with somebody is they show up on our arrest sheet.
    District attorneys have been described as holding a quasi-
judicial office, and I take that terminology seriously. Every 
morning in my office we go through a veritable triage of 
screening cases and making charging decisions, and somehow we 
have to make wise choices. We have got to at some point look at 
an individual and say this person is still worth working with. 
This person can still, with the proper support, turn his or her 
life around.
    Then we get to the other extreme. This person, but virtue 
of what we have seen and their actions in the community, this 
person is beyond that point, and our job now is to simply 
prosecute that person effectively and put that person away as 
long as we can.
    There are hundreds of gradations in between those two 
extremes. What helps us make those decisions is if we have 
available to us programs, many of which have been described 
this morning, that give us alternatives, that shows us that if 
this person can be put into that anti-truancy program, if we 
can work with that family to get that person to go to school 
and to learn how to read and write and how to develop job 
skills so that they can get a job, the most important thing for 
many of these people is to have a job, so they can support a 
family and make their mortgage payments.
    But if we don't have programs that bring them there, then 
my job is tougher. I don't need any more laws. I have got all 
the criminal laws I need in the State of Illinois. I don't need 
any more sanctions. The sentences are plenty tough. I have got 
all the discretion I need.
    What I need is what Teny talked about, and that is programs 
on the street that have staying power and that have credibility 
and that will work with people, that I can refer people to. 
Because what I do have is the hammer. I have the coercion that 
might just make that person stick to a program, whether you 
call it pulling levers or anything else. We make that decision, 
whether they are worth working with or it is just time to 
warehouse them. And that is a real loss to society.
    Mr. Scott. Thank you.
    The gentleman from California?
    Mr. Lungren. Thank you very much, Mr. Chairman.
    This is a difficult hearing, because we have eight or nine 
witnesses and all of them have excellent qualifications and all 
of them have something to say.
    Mr. Scott. Will the gentleman yield?
    Mr. Lungren. Yes.
    Mr. Scott. We expect to have more rounds of questions----
    Mr. Lungren. I understand that, but it makes it difficult 
for those of us who are in several Committees to come here and 
at least ask questions.
    Just a suggestion, it is just, they all have excellent 
ideas and perspectives and it would be good if we would have a 
chance to concentrate on several of them rather than all of 
them.
    I am not into rebuttals, but I am a little concerned that 
the only reference made to the Los Angeles Police Department 
was a negative one, about officers exacerbating the situations.
    Maybe I take it personally because my brother used to be an 
L.A. police officer and I recall him responding to a call for 
drug dealers in Nickerson Gardens, and I recall that it was a 
drug dealer who had vowed to kill a cop. And I recall that he 
had my brother directly in his sights and my brother would have 
been a victim had not another officer come upon the scene and 
caused the person to leave.
    I think we have to understand that while there are bad cops 
in bad situations, my judgment is most of them want to help the 
people and the communities that they serve.
    When I was attorney general of California, I changed the 
name of the program we had from the Crime Prevention Center to 
the Violence and Crime Prevention Center, because oftentimes if 
you wait until it is a crime, it is too late. And I really 
wanted to treat violence as well, because we needed to have 
programs of education before you got to intervention, and then 
intervention and deterrence and punishment. I mean, it is a 
continuum, it seems to me. I hope that no one disagrees with 
that.
    One of the toughest things I had when I put together a 
juvenile violence task force is to get everybody to talk 
together. I had a group that was about four times this size 
representing all the disciplines, and the first time they came 
in the room it was kind of interesting. It was kind of like 
dogs circling one another and not sure what they ought to do 
because everyone thought if that person gets money, we are not 
going to get money. And yet at the end of about a year process, 
they found common ground, as I think we have here.
    I will never forget going to a program and one of the high 
schools in Los Angeles had been the site of a shooting and 
talking about the Safe Schools Program that we had developed 
and urged onto other schools, and after it was all over a young 
girl, about 14 or 15, came up to me. She happened to be 
African-American. She said, ``Why did it take the death of one 
of my classmates for you adults to take this seriously?'' And 
her emphasis was, why don't you do that which is necessary to 
provide a safe school environment for me?
    And so that is why I take the comments of the 
representative of the prosecutors here very seriously. We all, 
I think, want to do things that are in that continuum, but that 
doesn't mean that we don't understand that you have to have a 
sense of order backed up by a sense of enforcement backed up by 
a prospect of punishment if all else doesn't work.
    I rarely found a victim in a crime say to the responding 
officer or paramedic, ``What was the socioeconomic background 
of the person who just beat me up?'' Basically, ``Please take 
care of my wounds. Please catch that person and make sure he or 
she doesn't do it to somebody else.''
    So I guess my question to the representative of the 
district attorneys is this: There has been at least some 
reference of a critical nature to trying juveniles as adults. I 
view that as an unfortunate but necessary part of the overall 
system. And I wonder if you could give us the thoughts from 
your perspective on how you make that decision, what it gives 
you in the way of alternatives, and whether or not you believe 
it is effective in certain circumstances.
    Mr. Logli. I do believe it is one of the more difficult 
decisions I have to make. And although I have 47 assistant 
States attorneys, any decision to transfer a young person into 
the adult system is made only with my knowledge and ascent. 
That is how serious I believe it is.
    Some of that discretion has been taken away from us with 
recent legislative changes in my State and many other States, 
and that is if you charge somebody who happens to be 14 or 15 
years old with murder, that is an automatic transfer. If you 
charge somebody with a sexual assault, a violent sexual assault 
at a certain age, that is an automatic transfer. There may be 
no discretion there.
    There are still some discretionary transfers. Now I can 
still short circuit that State law because I can charge 
something less than murder. I can charge a lower-level sexual 
assault, perhaps. You know, I am not in the business of writing 
fiction. You have got to charge what the conduct really is.
    But in those cases where we have the discretion, yes, it is 
based on prior record, it is based on threat to the community. 
Many times, it is based on the fact that there are no programs 
in the juvenile system that is really going to have a credible 
impact on that young person, and we really have no choice when 
we are looking at preventing future victimization. And if we 
don't have anything in the community that can really address 
that young person's problems and specifically, I am talking 
about sometimes the 15-or 16-year-old sexual assault of them. 
Now I know we are here talking about gangs, but I mean, that is 
one of the situations where there are very few alternatives to 
just try to protect the community.
    When it comes to gang involvement, I think we have a few 
more alternatives. But, again, I mean, I don't go out of my way 
to transfer aggravated batteries or the lower-level felonies 
into adult court. I think that we can deal with that in 
juvenile court. When it comes to gang affiliation and gang-
related criminal activity, there having effective programs that 
can deal with that would certainly prevent some of that 
transferring. But in certain cases where there is murder, there 
is a serious sexual assault that may be somehow gang related, 
you know, I think it is probably in many of those cases a tough 
decision whether we have to move them up.
    Mr. Scott. Thank you.
    We are going to have another round of questions.
    I will now defer to the gentlelady from California.
    Ms. Waters. Thank you very much.
    I just want to take the first minute to say to my colleague 
from California that we are all sensible adults, elected by the 
people because we have demonstrated some quality that our 
people support. Nobody suggests that all cops, all police are 
bad police. I qualified my remarks somewhat about ill-trained, 
insensitive, and there are those too.
    So we understand that there are good cops and there are bad 
cops. And I have to put that on the record because oftentimes 
these statements are made in ways that would have listeners 
believe that somehow there are only a few people who care about 
the good cops and others who do not.
    I do know over my years of experience, and if you read the 
papers and you know anything about Los Angeles, we have a 
history of the tension between the police and the community, 
and that is not fictional. That is real, whatever the reasons 
are for that.
    I understand there was some discussion about the truce 
work. I know that we have programs in Los Angeles and we have 
some people who have been involved for quite sometime in doing 
truce work, and a lot of our young ex-gang members, the O.G.s, 
are advocates for funding for truce work.
    I am not so sure that there is any permanency to it, that 
sometimes you can put out a potential confrontation, but there 
appears to linger the possibilities of confrontation because 
when there are, you know, various gangs in these communities, 
you have friends, relatives who have been killed, and the 
revenge motive does not go away easily.
    Who can tell me about your successful truce work that is 
sustainable that has made a difference?
    Mr. Gross. I think that you are very right. When there is a 
homicide, it is a lot harder to come back than a simple 
shooting, all right, and anger resides for a long time.
    I think first, before you bring sides together, you just 
try to get a ceasefire, all right. Can we just calm down? Can 
we work?
    We support the victims' families. Mothers are a great 
asset, a moral voice. I will never forget, in 2001, I was 
stunned. I run a nonviolence institute. A mother who lost her 
son, about 20 minutes later on TV says absolutely no revenge in 
my name. We are still working together. Obviously a moral voice 
has a lot of clout. Her side has not retaliated. It is now 
2007.
    We take very seriously funerals. We go to funerals. We just 
had the funeral of Young Blood. Everyone was in red. We support 
them. We help them get some funds. We help with the family. We 
got them a refund from the funeral home. We coddle them, yes, 
we do, so there is sympathy and help.
    We help one of the O.G.s say on the side to one of our 
Cambodian street workers, ``Can you get me some mental 
health?'' He wouldn't say it in front of his crew.
    So there is a surge there and there is an understanding and 
you reason that, do we need another life lost. We use the 
parent. Look what they are going through. Does the other side, 
who is also Cambodian, need to go through that?
    Ms. Waters. Okay.
    Mr. Gross. Another thing, real quick, if I can say it?
    Ms. Waters. Yes.
    Mr. Gross. Following Monday, we went to see one of the main 
shooters of this gang, twice convicted of gun charges, in jail. 
Had a conversation then. He reached out to that. He is seeing 
now differently.
    So you pull any lever you have. We don't mind walking on 
the carpet on our knees as long as we can create the conditions 
to calm this thing down.
    Ms. Waters. Does anyone else have a model for truce work 
that is sustainable, that works, that has caused the cessation 
of warfare over any sustained period of time?
    Yes, Mr. Kennedy?
    Mr. Kennedy. There are examples of truces like that, so 
here in the District the Alliance of Concerned Men has truces 
that I think are over 10 years old now, and they work as Teny 
works.
    There is no model for that. There are examples, but there 
are no examples of ways to consistently do that when one or 
both parties aren't willing, and I think that is the state of 
the art.
    Ms. Waters. May I ask also if any of you, with the 
connections or the work that you do, calls a meeting of shot 
callers from gangs, would the police allow you all to meet?
    Let me hear from Mai Fernandez.
    Ms. Fernandez. Yes, we work in very close collaboration 
with the police department here in Washington, DC, and now that 
we are in Maryland, we have also worked very closely with them. 
They know the gang members. They know that they come to our 
youth center. They talk with them regularly. They talk to their 
parents regularly.
    Ms. Waters. So you don't have gang injunctions, where 
either one of several situations exists: a condition of parole 
is they cannot be in the company of other gang members, or 
injunctions such as the one in the Greater Los Angeles area, 
they can't be in certain places, they can't languish, they 
can't linger, they can't associate, and a meeting would be 
considered a violation of that. You don't have that situation?
    Ms. Fernandez. There may be individual cases where that 
exists, but that is not something that we have used nor I have 
known in my experience.
    I also think that even if that injunction existed and that 
meeting was called by both community and law enforcement 
officials, that it probably wouldn't be a violation.
    Ms. Waters. Not law enforcement. Community leaders, program 
operators who really want to talk without intimidation, without 
fear, without the thought that the police is listening. If you 
called that kind of meeting, would you have any kind of 
interference, surveillance or intimidation?
    Ms. Fernandez. No. I mean, I think because we have worked 
so closely with the police department and the public officials 
in D.C., we wouldn't. There is a trust that is developed 
between us and them. That didn't always exist. It has existed, 
probably, we have developed it over the last 10 years.
    Ms. Waters. Thank you.
    Mr. Forbes. Thank you, Mr. Chairman.
    Mr. Butts, you have been the lost man for a few minutes 
there, so I want to come back to you with just some of your 
testimony that you mentioned earlier.
    I think I heard you right, but did you say 1994 was the 
last year we really had, like, a spike in violence? Or did I 
misinterpret that?
    Mr. Butts. If you plotted out the incidence rate of serious 
violent crime, you would see it climbing throughout the late 
1980's, peeking about 1994, 1995, and then falling 
dramatically.
    Mr. Forbes. So if I had a graph and I could draw it, I 
would draw it up like this, from the 1980's to 1994, and then 
from 1994 to today it is----
    Mr. Butts. Till about 2004.
    Mr. Forbes [continuing]. It has been on a decline?
    Mr. Butts. Right. And then it starts to pick up again.
    Mr. Forbes. Good.
    So the periods of time in which the Chairman was 
referencing all of the bills the Judiciary Committee and all 
has worked on, during that period of time there has been a 
decline by that graph in violent crime in the United States.
    The other question I have, Mr. Sherman, I just wanted to 
make sure I heard you correctly or read your testimony 
correctly.
    You said as many as 76 percent of all murders in 
Philadelphia involve convicted or charged offenders under 
supervision of community supervision agencies?
    Mr. Sherman. As either victims or suspects, recognizing the 
fact that over half of the murders go unsolved. So we can 
measure 100 percent of the victims, but we are taking educated 
guests based on the arrests that have been made, as to how many 
of those in which no arrest is made were also committed by 
people who were either under supervision of the court because 
they were awaiting trial but in the community, and that is 
30,000 people in Philadelphia; on probation or parole at the 
county level, that is 52,000; on State parole, that is 9,000; 
or in juvenile probation, which is 6,000.
    It adds up to one out of every 15 people in Philadelphia is 
in the community at large under court supervision, but only a 
tiny fraction of them are highly likely to kill somebody.
    And what we are doing is trying to reinvent probation and 
parole, at least at the adult level, to focus on the very 
dangerous people and to use New York's model, using a simple 
computer with palm print identification, to have the monthly 
visit with all the low-risk probationers.
    Mr. Forbes. Mr. Kennedy, one of the statements that you 
made was about organizing the grandmothers to do that, but one 
of the things that was shocking to me, I was speaking in 
Arkansas at a gang summit that they had out there, and Luis 
Cardona, who Mr. Sherman is probably familiar with from 
Maryland and you might be familiar with, Ms. Fernandez, too, 
who is one of their key people, is a former gang member, works 
for the State of Maryland now in gang prevention.
    But he told me something that just shocked me. He said the 
number-one group that works against his efforts, he said, in 
Maryland, he said, ``You will be shocked at who this group 
is.'' And I said, ``Who?'' And he said, ``It is the mothers.'' 
He said, ``The mothers scream at me and curse at me because 
they want their kid involved in these gangs because of the 
economic benefits they are getting from them.''
    And, Mr. Logli, I am looking here at your testimony that 
you had earlier about this story of the mother in New Orleans, 
that was in your written testimony.
    Mr. Logli. Yes, sir.
    Mr. Forbes. Who, as I understand it, actually took the gun 
and put it in her son's hand and told him to go out and kill 
the person he was in a fight with, and had a picture of it on 
her wall. Is that----
    Mr. Logli. She had a picture from a previous time of the 
young man holding a weapon, and when that young man was beaten 
up by a rival and came home, she said, ``Well, go out there and 
make your revenge.''
    And he went out, within I think it was 20 or 30 minutes had 
killed the other young man.
    Ms. Waters. Will the gentleman yield for a moment?
    Mr. Forbes. Pardon me?
    Ms. Waters. Is that an aberration or something that----
    Mr. Forbes. Well, I don't know. Mr. Cardona, from Maryland, 
is the one who told me. We can bring him in to testify.
    Mr. Kennedy. Can I respond to that?
    Mr. Forbes. Sure.
    Mr. Kennedy. I want to be careful here because I don't know 
him and I don't know what he said----
    Mr. Forbes. And I had never met him before, but----
    Mr. Kennedy. In 25 years of doing this, I have never, ever 
seen any organized group in a community, mothers or anybody 
else, oppose efforts to get their kids out of trouble or oppose 
efforts to help them----
    Mr. Forbes. And I think that is what we would normally----
    Mr. Kennedy [continuing]. Or to organize in----
    Mr. Forbes [continuing]. Assume, but----
    Mr. Kennedy. That is unheard of.
    Mr. Forbes. But we are hearing testimony of that. There was 
a case on TV not too long ago where a lady actually drove her 
son to a home to send him in to rob someone at gunpoint. He was 
a member of a gang. He was shot, came back out and they had to 
call 911 to pick him up because she was arrested.
    But whatever the case, that makes it very difficult 
sometime on prevention programs, if we do have that.
    Mr. Logli, I wanted to ask you a question also. You tell us 
that, you know, there has been this huge shift in gangs that we 
have seen in more of the international gangs that are coming 
into the country now. As I mentioned in our testimony earlier, 
we have high percentages of gang members who are here illegally 
now. And also the whole meth trade has shifted in just the last 
few years. It used to be kind of the homegrown variety. Now we 
have these Wal-Mart, if you would, kinds of meth cartels that 
are being put in Mexico with the gang networks coming into the 
United States.
    Your written testimony talked about those and the 
increasing use of 16-and 17-year-olds to do their activity 
because of ``the belief that juveniles will not get any time.''
    And my question to you is this: We have heard testimony in 
here that if we simply arrest the 16-or 17-year-old, 20 more 
will pop up in their place because these gangs will continue to 
recruit and put them in there. With the laws that you currently 
have as a State prosecutor, how are you going after those 
national gangs that may be located in other States with their 
headquarters in other places out there?
    Mr. Logli. Well, I really, as a local prosecutor, am not in 
too much of a shape to go after the organization as an 
organization. We deal with the individuals.
    We have unique challenges with those gangs. In my 
community, I have bilingual police officers and bilingual 
prosecutors, but probably not enough. And so there is a 
communication problem. Not that we get tremendous cooperation 
from all gang members, but we get less cooperation from the 
Latino or Hispanic community, especially recent arrivals, 
simply because they came out of countries where the police were 
very corrupt and the government was very corrupt. And they 
carry that distrust with them into our nation.
    And so we have a real problem getting cooperation in terms 
of witnesses. We find that a lot of those gangs, because of 
that, will simply seek out their own revenge.
    Mr. Forbes. And I understand that and don't disagree with 
you at all on that, but what I am trying to get at specifically 
is, how do you as a local prosecutor go after the gang networks 
on these national and international gangs?
    Mr. Logli. That is, as we used to say in the service, that 
is above my pay grade.
    Mr. Forbes. So you really can't?
    Mr. Logli. We really can't, and there is where we rely, 
probably, on cooperation with the U.S. Attorneys Office. They 
have got the resources. They have got the network of officers 
in other States, prosecutors in other States. They can really 
go after more the organization. Our efforts are directed at the 
individual.
    Mr. Forbes. And would you agree with me that it is 
important to go after the networks and try to pull the networks 
down?
    Mr. Logli. If we can, certainly. I mean, if you can go to 
the head of the organization and decapitate the head, you will 
reduce their effectiveness.
    But I have got to tell you, Congressman, I do not believe 
that the Latino gangs that we are seeing are terribly 
organized. I don't believe they are highly organized. I think 
there is a lot of loose associations. They are not as organized 
as the Bloods, the Crips, the Gangster Disciples, the Vice 
Lords. They have got almost a business organization. We haven't 
quite seen that yet with the Hispanic or Latino gangs.
    Mr. Forbes. And last two questions, and I know my time is 
expired too, but Mr. Kennedy, again, I would love to sit down 
sometime and talk with all of you at length because you have 
all got some great ideas, but one of the things that you did 
emphasize in terms of the balance of your testimony, I think, 
before, is you stated at one time before that the use of 
Federal sanctions was very important in ceasefire and knocking 
the homicide rate way down. And you specifically talked about 
the effectiveness of the Federal prosecutions, if they were 
used properly and their judicious use.
    And then, Ms. Fernandez, when you talked about the 
homicides in Washington, D.C., I believe it was five or eight, 
but those homicides were prosecuted and the people 
incarcerated, wasn't that correct?
    Ms. Fernandez. Yes.
    Mr. Forbes. And after that, there were no additional 
homicides that you could report today, of that group?
    Ms. Fernandez. Correct. We put the program in place while 
the homicides were taking place, and I think that it was both, 
again, the----
    Mr. Forbes. A combination of the two.
    Ms. Fernandez. Correct.
    Mr. Forbes. Thank you, Mr. Chairman.
    Mr. Scott. Thank you.
    Chief Corwin, your written testimony mentions a Nurse-
Family Partnership. Can you describe the effect of that 
program?
    Chief Corwin. The Nurse-Family Partnership? I am not real 
familiar with that particular program. It is the Kids Network 
that are really familiar with that, but we can provide 
additional information for you if you would like.
    Mr. Scott. In your written testimony, you indicate that it 
has shown a reduction in crime, significant reduction in crime, 
for those that have had that resource. Can you tell us the 
multidimensional foster care program?
    Chief Corwin. I can give you the other information. I will 
provide that research to you.
    Mr. Scott. Okay. And bully prevention?
    Chief Corwin. I believe there is actually people here on 
the panel who can probably speak specifically to those 
particular programs.
    Mr. Elliott. Mr. Chairman?
    Mr. Scott. Mr. Elliott?
    Mr. Elliott. Those are blueprint programs and I can 
describe them for you.
    The Nurse-Family Partnership is a program that initiates 
with single at-risk mothers, first pregnancy. It involves a 
nurse visitation program when she registers for prenatal care 
and continues with nurse visits to the home until the child is 
2 years old. So it is about a 2.5-year intervention.
    That intervention has proved very, very effective. It 
reduces the incidence of child abuse by almost 80 percent. It 
reduces the unemployment rate on the part of the mothers, the 
drug involvement on the part of the mothers, and 15 years 
later, when those kids are adolescents, it reduces the risk for 
arrest by 60 percent and conviction by almost 90 percent for 
those kids.
    MST is multisystemic family therapy. I mentioned that 
earlier. It is a program which is a clinical intervention, 6 
months. It is a family-based intervention which has proved to 
be very effective. It can reduce the risk of recidivism by as 
much as 75 percent.
    The multisystemic treatment foster care program is one of 
the most cost-effective programs we have. It returns about $13 
for every dollar we invest in it. It is also for deep end, what 
we call deep-end kids, but it is a foster care program. And it 
is one of the programs which we recommend as going to scale 
with across the country. All three of those programs are 
programs we could put in across the country.
    Mr. Scott. And the importance of bully prevention?
    Chief Corwin. The bully prevention program, it is a 
blueprint program, it is the one developed by Dan Olweus in 
Norway. That program reduces the incidences of bullying on our 
elementary and middle school campuses by 50 percent and has a 
dramatic effect about the social climate of the school and 
actually increase school performance as well.
    Mr. Scott. And, Mr. Kennedy, your program has shown success 
in getting truces. Have you seen any successes in reducing gang 
membership to begin with?
    Mr. Kennedy. Well, what we produce aren't truces because we 
don't ask. Truces are voluntary. This is not voluntary. 
Offering health and bringing in the community is not the same 
as saying if you don't go along with this, we are going to let 
you do that. There is an ``or else'' here that is very 
important.
    But, yes, the fact is, and I am now convinced that the 
absolute most important preventive action we can take is to 
dethrone the very hard core that is controlling the streets, 
modeling behavior for younger kids and making the community and 
all the rest of us look like idiots. And if they lose their 
standing on the street, then that no longer becomes an 
attractive track for younger kids and the danger and the fear 
that drives them into banding together for self-protection is 
greatly eased.
    And if I can refer back to Mr. Forbes' question, we are 
seeing this basic framework work equally effectively with MS-
13, with the Sureno West Coast gangs. We don't see, and nobody 
that I know that is engaged with MS-13 at the local level, sees 
the kind of organized, purposeful structure that we are being 
told MS-13 has. And I think the stories that are being told 
about MS-13, particularly by the FBI, are profoundly 
misleading. And I don't know any gang researchers or any people 
in local law enforcement that agree with those pictures.
    Mr. Scott. Mr. Logli, you mentioned witness intimidation as 
a problem. What can we do to address that problem?
    Mr. Logli. The biggest problem we have at the State level 
is resources, and----
    Mr. Scott. What would you do with additional resource?
    Mr. Logli. We don't have to move people great distances. We 
can move them from one side of town to another side of town. We 
can move them temporarily into a motel. We can give them a cell 
phone so they can call the police if there is a problem. We 
don't need new identities and move them off into some community 
in Arizona.
    But our resources are really tight on that, and if the 
Federal Government could provide some money to get these 
programs going, and then through matching grants and that type 
of thing encourage States to start their own funding stream, 
that would be a huge step in a very constructive direction.
    Mr. Scott. And, finally, Ms. Fernandez, does your GIP 
program reduce gang membership?
    Ms. Fernandez. Yes, it does.
    Mr. Scott. How does it do that?
    Ms. Fernandez. Well, if you come down and talk to any of 
our kids, a lot of times you find out that the reason that they 
are in a gang is because they are bored, they didn't have 
anything to do after school. We get them involved in other 
stuff.
    We have art programs, we have dance programs, we have 
leadership programs. You name it, we have got an alternative 
for it, and it is that which the kids are looking for.
    You know, in the cases that they have dropped out of 
school, they need jobs, and so we help them get into those. So 
it is really creating alternatives that is the key.
    Mr. Scott. Thank you.
    If there are no other questions----
    Mr. Forbes. Mr. Chairman, I have a follow-up question for 
Mr. Kennedy.
    Mr. Kennedy, you talked about the fact that these gangs 
aren't organized. You are aware that the Attorney General and 
Salvadorian president have just entered arrangements and 
agreements between the two countries because they felt that 
they were highly organized and coming back and forth.
    So you think that they were both wrong in that recognition?
    Mr. Kennedy. What we see where MS-13 and other Hispanic 
gangs, which is mostly what we are talking about, with ties, 
generally it is three-way ties. It is local in the U.S., there 
is a California connection and then there is a Latin American 
connection.
    What we see going on at the local level is very high levels 
of crime, including some extremely serious violence. So this is 
not to say it is not important. It is important. It is very 
real and it is very dangerous.
    But what we see driving that is the same kind of local 
nonsense that we see with other gang structures. The shots are 
not being called either from California or from San Salvador. 
So that is all I can speak to, is what the local presentation 
is.
    Mr. Forbes. In Boston, where you had such good success and 
all in your process there, now that they have had this up tick, 
I think, have they asked you to come back there and reinstitute 
your program there?
    Mr. Kennedy. We have been discussing that, yes.
    Mr. Forbes. Have you----
    Mr. Kennedy. They don't need me, all right. There are 
people in Boston who know this inside out. And the commitment--
the public--this is a nasty story, but Boston has now said in 
plain language, we kicked this thing to the curb, we made a 
mistake and we need to put it back together.
    Ms. Waters. Mr. Chairman, if I may?
    First, I would like to ask you, are there any former gang 
members in the audience that I could hear from with just their 
thoughts or their advice about what they think we could be 
doing?
    I don't know. It is up to the Chairman. May I hear from 
one?
    And while they are coming----
    Mr. Scott. Did you have a question?
    Ms. Waters. I do. Well, that is my question. If I could 
hear from a gang member their thoughts about what they have 
heard, any advice that they may have. And before he starts to 
say to Mr. Kennedy he missed one connection with the so-called 
Mexican gangs, and that is the prison where the shot callers 
are. All right. If it is all right with the chair----
    Mr. Scott [continuing]. Objection to----
    Mr. Forbes. Mr. Chairman, the only thing, I would love to 
hear from them, if we could schedule a time, but we have got 
several of our Members left. They don't get to ask any 
questions and all at this particular point in time, so why 
don't we schedule----
    Ms. Waters. I would ask unanimous consent of my colleagues 
to allow that to happen.
    Mr. Scott. Is there objection?
    Mr. Forbes. Mr. Chairman, I would just say this. I would 
think we ought to have an opportunity to have every member be 
here, just to hear what they say. We want to hear from them. 
And schedule an opportunity that they can come back and 
testify. We would love to have them. I would love to hear them 
and bring in Mr. Cardona and several other people, if you would 
like to do that.
    Ms. Waters. If I may, Mr. Chairman, I, too, would agree 
that we should have additional hearings to further explore 
this----
    Mr. Scott. There will be additional hearings on this issue, 
hopefully even field hearings, so we can have additional 
hearings out in the field, where these situations are.
    Ms. Waters. I would appreciate that. And I would also, if I 
may, and I don't like pushing this hard, but one of the things 
that I have discovered working with young people is, they don't 
think they get their chance at the table. And they don't think 
we listen and they don't think we care. So if I could indulge 
my colleagues, I would like to hear from----
    Mr. Scott. If we can hear briefly, we have to be out of the 
room by 12:30, okay.
    Was there objection?
    If you could identify yourself and make a brief statement.
    Mr. Cartagena. My name is David Cartagena. I would like to 
thank you for giving me the privilege and opportunity to speak 
to the Committee.
    Thank you, Mr. Chairman.
    Thank you, Ms. Waters.
    One of the things that I can say real briefly is, growing 
up with gang affiliation, growing up in a housing project, 
growing up as an inner-city minority, although I don't have the 
appearance, what I found is that in my upbringing there was a 
lot of negative influences. There wasn't no Big Brother program 
for me. Although it existed, it wasn't in my neighborhood. 
There wasn't no lawyers, clergy or any positive, basically, 
male role models, positive influences.
    So what I have done in my occupation as a Provident street 
worker is to become that for youth and kids that have gang 
involvement, is become somebody, become somebody whose been 
there, done that and who also now is aspiring to live 
positively and to try to get them to aspire to want to achieve 
bigger and better things versus living negative, being 
reactionary rather than proactive.
    So not only am I a nonviolence street worker, I am also a 
youth advocate. I do job advocacy. I do court advocacy. I got 
to court and advocate when I can. I am a mentor. I am a 
mediator. You know, I am a licensed mediator, facilitator. And 
I am also, more importantly, I am a positive role model, 
somebody whose been there, whose made the mistakes, who has 
overcome obstacles and is now willing to give back to the 
community and help young kids not make the mistakes I have 
made.
    And what I have come to find is that is the thing that 
strikes a chord with them the most. What they need is people 
that have lived there, people that are just like them, but that 
live a whole different frame of mind now, that are trying to 
steer them away from making it versus in their neighborhoods 
they have drug dealers, low-level to mid-level. They have 
people that are emersed in gang activity. And those are their 
role models. Those are their peers. Those are the people they 
look up to. Those are the people they look to for input, for 
information, for guidance.
    So I come and I try to intercede and I try to give them 
better information. I try to give them real street knowledge 
about, you know, the dangers of being involved in that kind of 
behavior and stuff.
    Thank you.
    Mr. Forbes. Can I ask David a question?
    David, what gang were you in? I am sorry, you said it was 
David. Did I misunderstand? I thought you said your name was 
David, wasn't it?
    Mr. Cartagena. Yes, that is correct.
    Mr. Forbes. David, what gang were you in, if you don't mind 
telling us.
    Mr. Cartagena. Almighty Latin King Nation.
    Mr. Forbes. And, David, how are you dealing with the young 
people that you have to deal with in terms of their fear, you 
know, their desire for protection from other gangs? Is that a 
very big element out there among them? How do you help them 
with that?
    You know, it is one thing if you have got the guy on the 
street that is trying to get them involved in buying or selling 
drugs for monetary reasons, but we are hearing a lot from gang 
members who say that they were just afraid if they didn't join 
one gang that they would be intimidated and threatened by 
another.
    Are you experiencing that? And how do you try to protect 
them from that?
    Mr. Cartagena. One of the ways that I am able to protect 
them is that I have no bones or problems with speaking to the 
opposition, speaking to the other gangs. I am out at 2 p.m. or 
2 a.m. It doesn't matter. Anyway I can to try and better the 
life of a young individual, it is what I am going to do.
    So if they feel, if they say, ``Look, you know, I want to 
come out, but the only thing is, I have a problem because, you 
know, my manito over there, or my senior, he ain't really going 
to be looking too favorably at that.''
    I will go talk to that individual and I will go speak to 
the gang itself and I let them know who I am, what I do. And 
basically, people for the most part, not just gang members, 
they know right from wrong, you know. They know right from 
wrong. So if they know I am actually caring and I am coming 
with compassion and love for that individual, more than likely 
they don't want any static or bad publicity or anything like 
that that can come upon them.
    Most of the time, they leave the kid alone. Especially 
because I work with a lot of kids that are under the age of 17.
    Mr. Forbes. Any threats upon you individually in doing 
this?
    Mr. Cartagena. Not yet. Not yet.
    Mr. Monteiro. Good afternoon. My name is Sal Monteiro. I 
represent the Institute for the Study and Practice of 
Nonviolence.
    This is just to the question that you asked earlier, about 
if gangs get together in a city, do the police say anything or 
is it a violation of parole.
    We work in Providence, and Providence is very small. You 
know, it is not real big. And we have gang members on all sides 
of town. And being as small as Providence is, they are going to 
meet. They are going to run into each other, you know, whether 
it is at the mall, whether it is at the store, whether it is at 
the corner or whether it is at the club.
    So being as street workers, we are, like Mr. Kennedy said, 
most of these gangs, there is only two or three guys in there 
that are really running things and are really saying, you know, 
running and calling the shots.
    So instead of waiting for them to meet each other on the 
street, whether it is a violation of their parole, we are going 
to go as street workers, we are going to go get those two or 
three individuals that are really calling all the shots, and we 
are going to sit them down and we are going to talk to them and 
we are going to try to mediate the situation to solve the 
problem, because most of the problems come from either ``he 
say,'' you know, ``he say'' information gathering, you know, 
``this person said this about me, that person said this about 
me.''
    And, you know, before it gets out of control, instead of 
letting them meet each other out in the streets, out in public, 
where, you know, gunshots and fighting and other individuals 
can get hurt, we bring them down, we are going to sit them down 
and we are going to talk to them. We are going to mediate the 
situation. We are going to come to them and find out what the 
problem is, why you are fighting, what is the problem, and we 
are going to settle it.
    So whether it is a case of violating parole, I don't think 
we even take that into consideration. The fact is that we want 
the violence to stop. We don't want gang members.
    And also, another thing that we tell the gangs, the young 
kinds, how we get across to them, that if me and, you know, 
this gentleman have a problem, he is in one gang, I am not in a 
gang but I have a problem with him, I go join another gang. Now 
all the problems--I had one problem with him, but now I got a 
problem with every person in his gang. I got a problem with all 
the people that he has a problem with in his gang.
    So there is a lot of different ways that, when you come 
from the street, when you live out there in the 'hood, there is 
a lot of certain ways that we come across these kids that they 
see it, they don't see it anywhere else.
    Mr. Scott. If there are no further questions, I would like 
to thank the witnesses for there testimony today.
    Ms. Jackson Lee. Mr. Chairman? Mr. Chairman? Might I, 
please?
    Mr. Scott. The gentlelady from Texas?
    As I had indicated, we need to be out of the room by 12:30.
    Ms. Jackson Lee. I thank the Chairman very much.
    This is a issue that I would like to credit Chairman Scott 
for beginning even before 1995, my 1st year in the United 
States Congress and certainly the work of Congresswoman Waters 
and a lot of other Members. I remember flying around on field 
hearings, asking attorney generals and law enforcement officers 
in 1995 not to fall victim to the crime bill and believe that 
incarceration was the only answer.
    And we have reaped what we have sowed. We literally ceded 
America to gangs and gang violence, primarily because we left 
no other alternatives and opportunities for young people.
    This may be the most historic and real opportunity for us 
to get real and to be able to confront many of these issues.
    I would just ask two straightforward questions, David, one, 
and then to the distinguished academicians. Who is first?
    David, is there hope? Can intervention now really work? Can 
we explain or get the word by way of resources and prevention 
dollars to the folk on the street and folk like you who are 
working to make a real decided change?
    Mr. Cartagena. I would just like to try to give you a brief 
example, all right?
    I have a 16-year-old juvenile who is part of an African-
American gang on the east side of Providence that I work with 
on a constant basis. I do follow up. I constantly outreach to 
him.
    He called me about 3 weeks ago. He was at a basketball 
game, playing a rival team. There were 30 or 40 kids there from 
another rival faction that he has beef with that all wanted to 
get him. And because he was on the other side of town, he had 
no protection. He didn't have any of his companions with him, 
his colleagues or whatever, compadres, and he called me.
    And he said, ``Look, David, I am at this basketball game. I 
don't know what I am going to do. These dudes really want to 
get at me. What am I going to do?'' I said, ``I will be right 
there.''
    Ms. Jackson Lee. SOS.
    Mr. Cartagena. I shot right over there. I sat in the 
bleachers with him, because his game had already passed. I sat 
in the bleachers with him.
    At the conclusion of the game, I actually had assistance 
from some of my colleagues and some of the faculty at the 
school to whisk him out of the back of the school and get him 
out of there.
    Now, upon the conclusion of the game, police came to the 
area, responded, because they heard of a threat of gang 
violence potentially happening. They pulled over a car and 
arrested four juveniles who were his potential enemies and 
confiscated a firearm in the car.
    So what I am saying is, does it work? Of course it does. He 
could have probably got killed. He could have got stomped to 
death that night, you know. But because he believed in a youth 
worker, he believed in an adult that could help him and assist 
him and get him out of that problem, he is been all right.
    And since then, he hasn't even hung with his east side 
buddies. He hasn't been in any trouble. He has been working. He 
has been going to school, minding his business. He is still on 
the basketball team. He just steers clear from certain games. 
But that is my----
    Ms. Jackson Lee. And he is alive.
    Mr. Cartagena. And he is alive. That is my testament to the 
fact that this does work----
    Ms. Jackson Lee. Can I just quickly, for Dr. Elliott, just 
very quickly.
    They laughed at me----
    Mr. Scott. Excuse me. I ask the gentlelady from Texas to 
suspend because, as I indicated, we have to be out----
    Ms. Jackson Lee. Is it 12:30 already? I can't see the----
    Mr. Scott. It is after 12:30. And we can have written 
questions for our witnesses, which we will forward to you and 
ask that you answer as promptly as you can. They will be made 
part of the record.
    And without objection, the hearing is adjourned.
    [Whereupon, at 12:32 p.m., the Subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

       Prepared Statement of the Honorable Sheila Jackson Lee, a 
    Representative in Congress from the State of Texas, and Member, 
        Subcommittee on Crime, Terrorism, and Homeland Security
    Mr. Chairman, I move to strike the last word.
    Thank you, Mr. Chairman for holding this hearing. Let me 
congratulate you also on your election as Chairman of this very 
important subcommittee. Congratulations also to you Mr. Forbes, on 
assuming leadership of this panel for the minority. I am confident that 
working together, we can achieve great things for the American people. 
We have much work to do and I look forward to working with all members 
of the subcommittee to address the real challenges facing our country 
in the areas of youth violence, juvenile crime, and gang intervention.
    Let me also welcome each of our witnesses:

        1.   Professor Delbert (Del) Elliott, Director of Center for 
        the Study and Prevention of Violence University of Colorado;

        2.   Dr. Jeffrey Butts, Senior Researcher, Chapin Hall Center 
        for Children University of Chicago;

        3.   Mr. David Kennedy, Director, Center for Crime Prevention 
        and Control John Jay College of Criminal Justice;

        4.   Mr. Teny Gross, Executive Director, Institute for the 
        Study and Practice of Nonviolence, Providence, RI;

        5.   Ms. Mai Fernandez, Legal and Strategy Director Latin 
        American Youth Center, Washington, DC; and

        6.   Chief James Corwin, Chief of Police, Kansas City, MO;

        7.   Professor Lawrence W. Sherman, Director, Jerry Lee Center 
        of Criminology University of Pennsylvania; and

        8.   Mr. Paul Logli, Chairman of the Board, National District 
        Attorneys Association.

    I look forward to their testimony.
    The subject of today's hearing is ``Making Communities Safer: Youth 
Violence and Gang Interventions that Work.'' This hearing could not be 
more timely, Mr. Chairman.
    Recent news reports cite an increase in crime in several major 
cities, particularly violent crimes. Much of the rise in violent crimes 
reported is attributed to youths, including youths associated with 
gangs. Even before the recent reports suggesting increases in violence 
committed by youths, we have seen reports of increasing gang violence 
and other criminal activities on a local as well as international 
scale.
    Mr. Chairman, today, state juvenile justice systems are 
overburdened and under-funded. Ongoing budget reductions at both the 
federal and state levels have closed programs vital to impoverished 
communities and children. These programs keep children out of trouble 
and out of the juvenile justice system, providing mentoring, after-
school opportunities, and other evidenced-based prevention services. By 
the same token, there is little, if any, funding available for proven 
intervention programs such as substance abuse prevention and treatment, 
mental health screening and treatment, gang prevention and intervention 
and more.
    The result is a disturbing reality. The only thing our nation 
guarantees a child in need is a detention or prison cell after they get 
into trouble. Research shows that there are many prevention and early 
intervention programs that work, yet we seem fixated as a society on 
waiting for kids to get in trouble and commit crimes, including violent 
crimes, then by spending much, much more on increased incarceration, 
the most expensive and least effective option available to address the 
problems presented by at-risk youths.
    Punitive incarceration approaches such as mandatory minimum 
sentences and prosecuting juveniles as adults to apply them are 
justified by, and geared to, the most violent youth offenders. Yet, the 
vast majority of youths caught up in the snare of these type punitive 
approaches do not commit violent offense. Only 25 percent of the youths 
incarcerated have committed a violent offense. A recent report showed 
that two-thirds of the detention facilities in 47 states hold youth who 
do not need to be in detention as they wait for mental health services. 
Over a six-month period in 2003, nearly 15,000 incarcerated youth, some 
as young as seven, were held in hundreds of juvenile facilities across 
the country because mental health services were not available in their 
communities.
    While only a small percentage of children have committed violent 
offenses, we are incarcerating children because we literally do not 
have effective alternatives in place, hardly in keeping with the 
original intent of the juvenile justice system. According to a report 
from the American Bar Association: ``[I]ncreasingly, it is not so much 
the criminality of the behavior but the lack of alternatives for 
children with severe emotional and behavior problems, children who have 
been expelled from school, and children whose families cannot provide 
adequate care that brings them into the juvenile justice system.''
    The lack of available services for poor children who need them 
creates an enormous disadvantage and makes it much more likely that 
they will be incarcerated than children from families with resources.
    And there is another grave impact from the tendency of our nation 
to concentrate on costly, after-the-fact punitive approaches as opposed 
to effective prevention and early intervention strategies. Statistics 
demonstrate racially disparate application upon our youth of many of 
the most punitive laws, particularly drug laws. For those charged with 
drug offenses, Black youths are 48 times more likely to be incarcerated 
than White youths. For violent offenses, Black youths are nine times 
more likely to be incarcerated than are White youths for the same 
offenses. Among youth with no prior admissions, Latinos are 13 times 
more likely to be incarcerated than Whites for drug offenses. For 
violent offenses, Latinos are five times more likely to be 
incarcerated.
    Children may receive a more punitive disposition than they might 
otherwise if their parents are not involved or are unable to leave work 
to accompany them to court, since there is no advocate to assure the 
court that they will monitor the child's progress and conditions of 
release. In addition, sentencing patterns have been shown to have a 
racially disparate impact due to many factors.
    Studies show that, given the same behavioral symptoms, more Black 
youths than White youths are arrested, prosecuted, convicted and 
incarcerated, and more White youths than Black youths are placed in 
mental health institutions as opposed to penal institutions. As Ed 
Latessa, a criminologist at the University of Cincinnati notes, ``[I]f 
your family has money, you get psychiatric intervention . . . if they 
don't, you get the prison psychologist.''
    Mr. Chairman, we know what works: prevention. Collaborative and 
comprehensive approaches to community violence that create working 
partnerships between law enforcement and prevention-intervention groups 
work. Prevention saves lives and money. It pulls poor and minority 
children out of the ``cradle to prison pipeline.'' It saves enormous 
amounts in the long run, yet can generate higher costs in the short 
run. Thus, garnering the political will among elected officials on two-
, four-, and six-year electoral cycles to invest in prevention for at-
risk youths is an ongoing and difficult challenge.
    Prevention and intervention programs keep children from getting 
into trouble and pull children out of trouble. These programs also save 
lives and taxpayer dollars. For every child diverted from a lifetime of 
crime, we save between $1.3 and $1.5 million, which is a conservative 
estimate since potential cost benefits such as better salaries and 
reduced public service costs outside the justice system are difficult 
to measure. To put these savings in perspective, a program that costs 
$10,000 per child, and has a success rate of only one in 100, still 
saves us more by serving 100 children and saving only one child than it 
would cost to lose that child to a lifetime of crime. Our public 
policies must be responsive to research and evaluation findings on the 
value of prevention and intervention.
    Again, thank you Mr. Chairman for holding this hearing. I look 
forward to hearing from our distinguished panel of witnesses. I yield 
back my time.

                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
